<html>
<title> - EVALUATING THE HEALTH IMPACTS OF THE GULF OF MEXICO OIL SPILL</title>
<body><pre>[Senate Hearing 111-1145]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1145
 
     EVALUATING THE HEALTH IMPACTS OF THE GULF OF MEXICO OIL SPILL

=======================================================================



                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

          EXAMINING THE HEALTH IMPACTS OF THE GULF OF MEXICO 
                               OIL SPILL

                               __________

                             JUNE 15, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
57-079                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut
BARBARA A. MIKULSKI, Maryland
JEFF BINGAMAN, New Mexico
PATTY MURRAY, Washington
JACK REED, Rhode Island
BERNARD SANDERS (I), Vermont
SHERROD BROWN, Ohio
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
JEFF MERKLEY, Oregon
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado

                                     MICHAEL B. ENZI, Wyoming
                                     JUDD GREGG, New Hampshire
                                     LAMAR ALEXANDER, Tennessee
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     JOHN McCAIN, Arizona
                                     ORRIN G. HATCH, Utah
                                     LISA MURKOWSKI, Alaska
                                     TOM COBURN, M.D., Oklahoma
                                     PAT ROBERTS, Kansas
                                       
                                       

                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)




                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, JUNE 15, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     2
Kaplowitz, Lisa, M.D., M.S.H.A., Deputy Assistant Secretary for 
  Policy, Office of the Assistant Secretary for Preparedness and 
  Response, Department of Health and Human Services, Washington, 
  DC.............................................................     4
    Prepared statement...........................................     6
Howard, John, M.D., Director, National Institute for Occupational 
  Safety and Health, Centers for Disease Control and Prevention, 
  Department of Health and Human Services, Atlanta, GA...........     9
    Prepared statement...........................................    10
Miller, Aubrey Keith, M.D., MPH, Supervisor for Public Health 
  Science, National Institute of Environmental Health Sciences, 
  National Institutes of Health, Department of Health and Human 
  Services, Washington, DC.......................................    16
    Prepared statement...........................................    18
Taylor, Michael R., J.D., Deputy Commissioner for Foods, Food and 
  Drug Administration, Washington, DC............................    21
    Prepared statement...........................................    22
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    29
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon......    31
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    33
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    34
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................    36

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Landrieu.............................................    45
    Senator Vitter...............................................    47
    Response to questions of Senator Harkin by Michael R. Taylor, 
      J.D........................................................    47
    Response to questions of Senator Enzi by:
        John Howard, M.D.........................................    49
        Aubrey Keith Miller, M.D., MPH...........................    49
        Michael R. Taylor, J.D...................................    50
    Response to questions of Senator Dodd by Lisa Kaplowitz, 
      M.D., M.S.H.A.                                                 51
    Response to questions of Senator Franken by:
        John Howard, M.D., Aubrey Keith Miller, M.D., MPH, or 
          Lisa Kaplowitz, M.D., M.S.H.A..........................    53
        Lisa Kaplowitz, M.D., M.S.H.A............................    54
        John Howard, M.D., and Aubrey Keith Miller, M.D., MPH....    55

                                 (iii)



     EVALUATING THE HEALTH IMPACTS OF THE GULF OF MEXICO OIL SPILL

                              ----------                              


                         TUESDAY, JUNE 15, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Murray, Casey, Hagan, Merkley, 
Bennet, and Enzi.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Health, Education, Labor, and 
Pensions Committee will come to order. I thank you all for 
attending this important hearing.
    The oil spill in the Gulf of Mexico, more accurately called 
an ``oil well blowout,'' is an unprecedented environmental and 
human disaster. On April 20, the explosion on the Deepwater 
Horizon oil rig killed 11 workers, a terrible tragedy in 
itself. The explosion set about a chain of events that has led 
to the worst oil spill in U.S. history. The most recent 
estimates are that the deep sea well is spewing between 25,000 
and 30,000 barrels of oil per day, amounting to more than 50 
million gallons of oil spilled to date. And as of last week, 
more than 1 million gallons of dispersants have been used to 
break up the oil.
    Of course, this is a very important issue for the Federal 
Government. In his first Oval Office address of this year, 
tonight, President Obama will discuss the oil spill. Just about 
an hour ago, Dr. Francis Collins, of the NIH, said that the 
National Institutes of Health will devote $10 million to 
support research on the potential human health effects of the 
oil spill. This is for respiratory, immunological, and 
neurobehavioral effects.
    All of us see the pictures of oil-soaked pelicans, the tar 
balls on the beach, and we can't help but think, ``How will 
this affect my drinking water, the air I breathe, the food I 
eat?'' That's why today we're going to examine how the oil 
spill in the Gulf affects public health.
    There are many different chemicals in crude oil and 
dispersants, with some more toxic than others. We know the 
environmental effects of these chemicals are devastating, but 
how they affect people is less clear. Previous oil spills, such 
as the Exxon Valdez spill in 1986 in Alaska, indicate there are 
some short-term health impacts. Breathing in oil mist can cause 
headaches, nausea, and respiratory problems. Getting oil on the 
skin can lead to skin issues. Children and individuals with 
health problems, such as respiratory conditions like asthma, 
are particularly susceptible to oil effects. Many of these 
physical health impacts appear temporary, but little is known 
about the long-term impacts.
    The oil spill may also affect mental health. One study in 
Alaska, conducted 1 year after Exxon Valdez, found that 
residents near the spill were more likely to suffer from 
anxiety, posttraumatic stress disorder, and depression.
    Thankfully, from what we can tell at this point, there have 
been relatively few public health impacts among the public and 
workers at the scene of the oil spill. As of June 7, about 70 
people in the five Gulf States have reported, to Poison Control 
Centers, health issues they think are from the exposure to oil, 
including throat irritation, headaches, nausea, and dizziness. 
More than 20,000 workers have been sent to the Gulf to help 
clean up the oil, but few have reported any illnesses. However, 
we need to continue to monitor the situation closely and 
respond to any potential risk.
    We also need to make sure that the American people know 
what is, and what isn't, a problem so that they aren't scared 
away from eating food or visiting beaches that are perfectly 
safe. The Government is now responding to this need. The 
Centers for Disease Control and Prevention, who are here today, 
is leading surveillance efforts across the Gulf States for 
health effects. The CDC is also putting out fact sheets and 
information on its Web site, describing what is and isn't a 
health risk, and detailed ways to minimize any risks. The 
Department of Health and Human Services has dispatched mobile 
medical units to the Gulf Coast. The Occupational Safety and 
Health Administration is monitoring the safety of cleanup 
crews, working to ensure that the workers have the information 
and training they need to do their jobs safely. The Food and 
Drug Administration is working closely with the National 
Oceanographic and Atmospheric Administration, making sure 
contaminated waters are closed to fishing to ensure that the 
seafood eaten across the country is safe. Today, we'll learn 
more about the Government's response and how it will change as 
the situation in the Gulf evolves.
    I convened this bipartisan hearing today, with Senator 
Enzi, to examine the impacts of the Gulf oil spill on the 
public's health and how the Government is responding to the 
crisis. Unfortunately, it doesn't look like the oil is going to 
go away anytime soon. We need to remain vigilant in protecting 
the public and the workers and volunteers in the cleanup 
effort.
    As I've always said, preventing health problems before they 
happen is key. We need to get out in front of the oil spill to 
ensure that Americans in the Gulf and all over the country are 
safe.
    I thank the witnesses for coming today, and look forward to 
hearing what you have to say.
    Now I will recognize the Ranking Member, Senator Enzi.

                       Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman.
    The Deepwater Horizon oil spill is tragedy of epic 
proportions, and I'm just as concerned about getting it cleaned 
up. And, in fact, I have a fellow in Buffalo, WY, that invented 
a way to clean up spills that's less expensive and more 
effective. He uses pine beetle killed trees, with some 
ingredients that he has 29 patents on, that do a marvelous job 
of cleaning it up. He's got some previous experience with 
cleaning them up. We've helped him submit and resubmit 
applications so that he could do it down in the Gulf; and so 
far, all that's happened is, they've been lost, I think. So, 
there are some other things that could be done there.
    But, today what we're going to concentrate on, of course, 
is the health. And, of course, it's a tragedy for the 11 
families who lost a loved one in the accident, but it's a 
disaster for many communities in the Gulf, and it's a colossal 
environmental mess. Today, I look forward to hearing from the 
Administration about the disaster's short- and long-term impact 
on public health.
    As of last week, the Louisiana Department of Health and 
Hospitals had reported 71 cases of oil spill-related illness. 
Of those, 50 individuals were involved in cleaning up the 
spill, while 21 were individuals from the general public. The 
cause of illness is still unclear, and reports continue to be 
uncertain. The good news from the reports is the fast 
turnaround in treating these individuals, but uncertainty 
remains about the long-term impact on the general public.
    Looking back to oil spills in the past, we see the dearth 
of information that's been collected, and the lack of research 
that's been conducted, on public health effects on the general 
public. With the spill in the Gulf of Mexico, we have a 
responsibility, in this crisis, to collect information and 
study the implications of the spill and the implications on the 
people, getting their baselines. Past spills have provided 
information on the environmental impact, but, with the wide-
reaching effects of the spill in the Gulf and the uncertainty 
of where the oil will spread, it's critical that we monitor the 
health of individuals in contact with oil and living in areas 
affected by the spill.
    I'm pleased with the response efforts to prevent 
contaminated food from entering the food supply, and I am 
looking forward to hearing more about how to reopen fisheries 
in a safe and efficient manner.
    On May 18, the National Oceanic and Atmospheric 
Administration closed all fisheries in the Gulf, so we can 
safely say that our food supply has not been contaminated. 
However, the impact on small businesses in the Gulf will be 
devastating, and it is important to put those individuals back 
to work as soon as it's safely possible.
    The Department of Health and Human Services has done a good 
job of posting information for the general public about what to 
do if they come in contact with oil or dispersants. I hope this 
hearing will give them an opportunity to reach out to those 
families and inform them of the risks of living near the spill, 
and the necessary precautions to take in the event that 
individuals come in contact with these toxic chemicals in the 
water.
    I welcome the witnesses today, and hope they can shed some 
light on these health-related issues.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Enzi.
    We have a distinguished panel here today. I'm delighted 
you're all here. I'll introduce you all. Your statements will 
be made a part of the record in their entirety, and we'll ask 
you to summarize them.
    Our panel, going from my left over to my right--Dr. Lisa 
Kaplowitz, the Deputy Assistant Secretary for Preparedness and 
Response in the U.S. Department of Health and Human Services. 
In her position, she's responsible for directing and 
coordinating policy and strategic planning for all components 
in the Office of Preparedness and Response. Prior to her work 
with HHS, Dr. Kaplowitz was the director of the Health 
Department for the city of Alexandria, VA, and, before that, 
the deputy commissioner for emergency preparedness and response 
for the State of Virginia.
    Next, Dr. John Howard, the Director of the National 
Institute of Occupational Safety and Health. In his capacity, 
Dr. Howard serves as the coordinator of the Department's World 
Trade Center Health Programs. Prior to his appointment as 
Director of NIOSH, Dr. Howard served as chief of the Division 
of Occupational Safety and Health in the California Department 
of Industrial Relations from 1991 through 2002.
    Next, we have Dr. Aubrey Miller, a senior medical advisor 
and liaison to the U.S. Department of Health and Human Services 
for the National Institute of Environmental Health Sciences. A 
medical epidemiologist and captain in the U.S. Public Health 
Service, Captain Miller previously served as the chief medical 
officer in the Office of Counterterrorism and Emerging Threats 
at the FDA.
    And last, we have Mike Taylor, the deputy commissioner for 
foods at the Food and Drug Administration. Mr. Taylor was named 
deputy commissioner for foods at the FDA in January 2010. He is 
the first individual to hold the position, which was created, 
along with the new Office of Foods, in August 2009. He is 
leading the FDA efforts to develop and carry out a prevention-
based strategy for food safety, a plan for new food safety 
legislation here in the United States.
    Again, I thank you all for coming here today. As I said, 
your statements will be made a part of the record. If you could 
summarize, basically, your statements in--oh, the clock says 5 
minutes, but if you run over, I won't worry too much, unless it 
gets real over. OK?
    Dr. Kaplowitz, welcome. Please proceed.

 STATEMENT OF LISA KAPLOWITZ, M.D., M.S.H.A., DEPUTY ASSISTANT 
  SECRETARY FOR POLICY, OFFICE OF THE ASSISTANT SECRETARY FOR 
   PREPAREDNESS AND RESPONSE, DEPARTMENT OF HEALTH AND HUMAN 
                    SERVICES, WASHINGTON, DC

    Dr. Kaplowitz. Chairman Harkin, Ranking Member Enzi, and 
distinguished members of the committee, thank you for the 
opportunity to testify today about our public health and 
medical efforts in response to the Deepwater oil spill 
disaster. I commend this committee for its leadership in 
holding today's hearing, and share your sense of urgency on 
this important issue.
    On behalf of the Department, I would like to extend my 
sympathies to the families of those who lost their lives in 
this disaster, to those who were injured, and to those whose 
way of life has been changed for years to come. The impacts of 
this disaster must be considered in the timeframe of, not weeks 
and months, but years. Oil can remain toxic in the environment 
for years, and we do not know the impact it could have on human 
health over the long-term.
    As the agency responsible for coordinating HHS preparedness 
and response efforts, ASPR chairs a twice-weekly policy call 
with other HHS agencies involved in the Gulf response, 
including the NIH, CDC, FDA, ACF, SAMHSA, other offices within 
HHS, and the Secretary's chief of staff. These calls assure 
that HHS response efforts are coordinated among all agencies 
and offices.
    ASPR has also provided direct support to the oil spill 
through the National Disaster Medical System. From the time of 
the announcement of explosion and fire, ASPR's regional 
emergency coordinators in the Gulf Coast area were in close 
communication with each State's emergency coordinator, the 
State Departments of Health, and the Association of State and 
Territorial Health Officials.
    HHS liaison officers deployed to the Unified Area Command 
Team, in Robert, LA, to the Incident Command Centers in Houma, 
LA, and Mobile, AL, and to the National Incident Command Center 
at the U.S. Coast Guard headquarters in Washington, DC.
    On May 31, HHS, in coordination with the Louisiana 
Department of Health and Hospitals, set up a mobile medical 
unit in Venice, LA, to provide triage and basic care for 
responders and residents concerned about health effects of the 
oil spill. The medical unit screens workers and citizens for 
exposure, and refers those who require further care to local 
healthcare providers or hospitals. Our goal is to support the 
local community and fill any gaps that may be there, not to 
displace local providers.
    Through June 14--yesterday--our NDMS medical unit had seen 
approximately 125 patients since opening. Some patient 
conditions, such as heatstroke, have been consistent with any 
response effort. In total, 48 individuals, or a little over 38 
percent, have been treated for acute respiratory conditions; 
another 27 patient encounters have been for dermatologic, eye, 
or gastrointestinal problems; 17 individuals have been treated 
for injuries.
    The Department is also directing attention and resources to 
address the behavioral health issues arising from the oil 
spill. Our experience and research from previous disasters, 
including the Exxon Valdez spill, allow us to anticipate and 
prepare for potential behavioral health needs, such as anxiety, 
depression, and other adverse emotional and psychological 
effects. To date, the Department's Substance Abuse and Mental 
Health Services Administration, or SAMHSA, has engaged in 
supporting State and local efforts to assess and meet the 
behavioral health needs of residents in the Gulf States and 
workers responding to this environmental disaster.
    In addition, since the information available to inform 
decisionmaking related to the human health impacts is 
inconclusive, Secretary Sebelius has asked the Institute of 
Medicine to convene an independent panel of scientific experts 
at a public workshop exploring a broad range of health issues 
related to the oilspill--from heat exhaustion and other 
occupational hazards, to exposure to oil and dispersants. This 
workshop will be held, actually, next week, June 22 and 23, in 
New Orleans, LA.
    I want to assure the committee that our office, along with 
our sister agencies within the Department and the 
Administration as a whole, are taking the public health and 
medical consequences of the oil spill disaster very seriously 
and are implementing a comprehensive strategy to monitor and 
address any public health and medical issues that may arise.
    Thank you for the opportunity to testify today. I'm happy 
to answer any questions you may have.
    [The prepared statement of Dr. Kaplowitz follows:]
          Prepared Statement of Lisa Kaplowitz, M.D., M.S.H.A.
    Good afternoon Chairman Harkin, Ranking Member Enzi, and 
distinguished members of the committee. I am Dr. Lisa Kaplowitz, Deputy 
Assistant Secretary for Policy in the Office of the Assistant Secretary 
for Preparedness and Response (ASPR), U.S. Department of Health and 
Human Services (HHS). Thank you for the opportunity to speak with you 
about our public health and medical efforts in response to the 
Deepwater oil spill disaster. I commend this committee for its 
leadership in holding today's hearing and share your sense of urgency 
on this important issue.
    Before I begin, on behalf of the Department I would like to extend 
my sympathies to the families of those who lost their lives in the 
explosion and sinking of the Deepwater Horizon, to those who were 
injured, and to those whose way of life has been changed for years to 
come. The impacts of a disaster such as this must be considered in the 
timeframe of not weeks and months, but years. Oil can remain toxic in 
the environment for years and we do not know the impact it could have 
on human health over the long term.
    Today, my colleagues and I will talk about actions the Federal 
Government is taking to (1) prevent injuries, illnesses and exposure to 
hazardous substances among response personnel and the general public, 
(2) ensure the safety of seafood from areas affected by the oil spill, 
(3) monitor the potential health impacts of the oil spill in the short 
and long terms, and (4) facilitate access to care to those impacted by 
the spill.
          aspr support to deepwater horizon oil spill response
    From the time of the announcement of the explosion and fire, ASPR's 
Regional Emergency Coordinators in Region VI (includes Louisiana and 
Texas) and Region IV (includes the rest of the Gulf States) were in 
close communication with the States' Emergency Coordinators, the State 
Departments of Health, and the Association of State and Territorial 
Health Officials. HHS Liaison Officers, who function as Medical Unit 
Leaders and provide coordination and oversight of Federal medical care, 
were deployed to the Unified Area Command team in Robert, LA, to the 
Incident Command Centers in Houma, LA and Mobile, AL, and to the 
National Incident Command Center in Washington, DC.
    On May 31 HHS, in coordination with the Louisiana Department of 
Health and Hospitals, set up a mobile medical unit in Venice, LA to 
provide triage and basic care for responders and residents concerned 
about health effects of the oil spill. The goal of this medical unit is 
to screen workers and citizens for exposure and refer those who require 
further care to local health care providers or hospitals. Our goal is 
to support the local community and fill in any gaps that may be there, 
not to displace local providers. The Secretary activated the National 
Disaster Medical System (NDMS), and deployed a Medical Strike Team from 
Arkansas to staff the first rotation of the medical unit. Furthermore, 
we deployed an Incident Response Coordination Team to provide command 
and control and logistics support for the unit.
                        gulf region surveillance
    HHS is working closely with the Occupational Safety and Health 
Administration (OSHA) and the Environmental Protection Agency (EPA) to 
monitor for and prevent illness among both those working directly to 
clean up the oil as well as the general population living in the Gulf 
Region.
    Because the oil spill in the Gulf region is unprecedented, we do 
not know the potential short- and long-term impacts of the spill on the 
health of workers or the region's general population. It is important, 
therefore, that surveillance and monitoring of the health status of the 
impacted population be initiated early, with continued surveillance 
activities for a number of years. To this end, HHS established a Health 
Surveillance Working Group, coordinated by the National Institutes of 
Health's National Institute of Environmental Health and Sciences 
(NIEHS), to coordinate the activities of various departmental agencies 
engaged in surveillance and monitoring related to potential health 
impacts in the Gulf region. The primary objectives of this Working 
Group are to:

    1. identify all current health and medical surveillance activities, 
as well as points of contact for all agencies involved in these 
activities;
    2. identify gaps in surveillance and develop relevant plans to 
address these gaps;
    3. develop central coordination and fusion of health and medical 
surveillance activities; and
    4. ensure that information is shared among all groups participating 
in health surveillance activities, as well as among workers directly 
involved in the oil clean-up and the general population.

    HHS agencies directly involved in health monitoring and 
surveillance in the Gulf region include:

    1. The Office of the Assistant Secretary for Preparedness and 
Response (ASPR), in the Office of the Secretary, responsible for 
coordination of surveillance efforts within HHS and for the National 
Disaster Medical System.
    2. The National Institute for Environmental Health Sciences 
(NIEHS), a component of the National Institutes of Health, responsible 
for developing worker training programs for environmental hazards and 
conducting research.
    3. The National Institute for Occupational Safety and Health 
(NIOSH), a component of the Centers for Disease Control and Prevention 
(CDC), responsible for providing information about protecting workers 
and volunteers from potential occupational safety and health hazards.
    4. The National Center for Environmental Health, a CDC component 
that conducts public health surveillance and educates the public about 
possible health effects associated with exposure to oil and 
dispersants.
    5. The Agency for Toxic Substances and Disease Registry (ATSDR), a 
sister agency to CDC that studies and provides scientific health 
information to prevent harmful exposures and diseases related to toxic 
substances.

    The Health Surveillance Working Group currently has six subgroups 
to address: (1) stakeholder issues; (2) health and toxicologic 
information; (3) survey/roster/questionnaire development; (4) human 
health surveillance activities; (5) human health biomedical monitoring; 
and (6) research.
    HHS agencies are working closely with State health departments in 
the Gulf Region, as States are responsible for population health 
surveillance and have systems to monitor changes in population health 
status seen by hospitals and other health care providers. As you will 
hear from my colleague at the CDC, we are also using poison control 
centers and the BioSense system to monitor health. To date, none of 
these systems has documented any evidence of an increase in conditions 
that could be linked to oil or dispersant exposure.
                 institute of medicine public workshop
    As I have previously mentioned, there is potential for the oil 
spill to impact not only the health of workers coming into direct 
contact with crude oil and dispersants, but also volunteers, residents, 
and visitors, who are likely to be subjected to less direct forms of 
exposure. Current scientific literature is inconclusive with regard to 
potential health hazards resulting from the spill. Some scientists 
predict little to no toxic threat to humans from exposure to oil or 
dispersants, while others express serious concern about the potential 
short- and long-term impacts exposure to oil and dispersants could have 
on the health of responders and affected communities. Since information 
available to inform decisionmaking related to the human health impacts 
is inconclusive, Secretary Sebelius has contracted with the Institute 
of Medicine to convene an independent panel of scientific experts that 
will plan and commence a public workshop exploring a broad range of 
health issues related to the oil spill, ranging from heat exhaustion 
and other occupational hazards to exposure to oil and dispersants. The 
workshop will bring together the best scientific expertise available, 
drawing from both local and national subject matter expertise.
    A review of current literature will be undertaken to facilitate the 
identification of gaps in knowledge concerning the human health effects 
of exposure to crude and weathered oil, exposure to dispersants, and an 
examination of the effects of environmental conditions, such as heat 
exposure, that have an impact on workers' health. A portion of the 
discussion will focus on delineating the populations most vulnerable to 
the adverse health effects of the oil spill and will include a division 
of worker populations into subgroups based on vulnerability.
    Because much is unknown about the potential short- and long-term 
health effects of the oil spill, a major objective of the workshop is 
to review and assess a framework for monitoring and surveillance of the 
affected populations. In conjunction with a discussion of surveillance, 
research methodologies and appropriate data collection will be explored 
for the purpose of obtaining a better understanding of the human health 
risks associated with the spill.
    Finally, because communities across the Gulf Coast have incredibly 
rich cultures and a dynamic history that contribute to the multitude of 
linguistic and cultural diversity found in the region, the workshop 
will take a special look at effective communication strategies to 
convey information about health risks to at-risk populations, 
accounting for culture, health literacy, language, technology, and 
geographic barriers.
    The IOM Workshop will take place on June 22 and 23, 2010 in New 
Orleans, LA and will be open to the public. A web cast and associated 
web portal for public comment will be available for those unable to 
attend in person.
                   behavioral health response efforts
    The Department is also directing attention and resources to address 
the behavioral health issues arising from the oil spill. The Deepwater 
Horizon oil spill may be unprecedented in terms of scope and damage, 
but experience and research from previous disasters--including the 
Exxon Valdez oil spill--allow us to anticipate and prepare for 
potential behavioral health needs. Disasters, whether natural or man-
made, can have adverse emotional and psychological effects on people. 
However, evidence also shows that individual resilience and support 
systems help prevent most people from developing serious behavioral 
health conditions.\1\
---------------------------------------------------------------------------
    \1\ Bonanno, G.A. (2008). Loss, trauma, and human resilience: Have 
we underestimated the human capacity to thrive after extremely aversive 
events? Psychological Trauma: Theory, Research, Practice, and Policy, 
5(1), 101-113.
---------------------------------------------------------------------------
    The nature and location of the Deepwater Horizon oil spill raises 
specific behavioral health issues. Gulf Coast residents have survived 
numerous hurricanes, including the devastation of Katrina and Rita, and 
previous oil spills associated with hurricanes. Re-traumatization--
experiencing the repetition of a traumatic event or exposure to 
multiple disasters--can heighten vulnerability to other traumatic 
events.\2\ Following the Exxon Valdez oil spill, ecological damage was 
compounded by economic repercussions for the fishing and oil 
industries. Depression and anxiety levels increased for a period before 
dissipating. Among fishermen whose livelihood had been impacted, an 
increase in depression, anxiety, stress, substance abuse, and domestic 
violence was noted.\3\
---------------------------------------------------------------------------
    \2\ Brewin, C.R., Andrews, B., and Valentine, J.D. (2000). Meta-
analysis of risk factors for post-traumatic stress disorder in trauma-
exposed adults. Journal for Consulting and Clinical Psychology, 68(5), 
748-766.
    \3\ Palinkas, L.A. (1993). Community patterns of psychiatric 
disorders after the Exxon Valdez oil spill. American Journal of 
Psychiatry, 150, 1517-1523. . . . and . . . Picou, S.J., and Arata, 
C.M. (1999). Chronic psychological impacts of the Exxon Valdez oil 
spill: Resource loss and commercial fishers. Sociological Spectrum, 23, 
12-19.
---------------------------------------------------------------------------
    The Department recognizes that in developing and implementing a 
behavioral health response to any disaster, Federal support must be 
carried out based on needs identified in close partnerships with the 
States. State partners know the needs of their communities and--
particularly in the case of the Gulf Coast States--have extensive 
experience responding to the disaster behavioral health concerns of 
their citizens.
    To date, the Department has been engaged primarily in supporting 
State and local efforts to assess and meet the behavioral health needs 
of residents of the Gulf Coast States and workers responding to this 
environmental disaster. CDC is conducting surveillance for behavioral 
risk factors. To aid their efforts, HHS has provided information and 
resources to State Disaster Mental Health Coordinators. Through its 
Substance Abuse and Mental Health Services Administration--or SAMHSA--
the Department has also instituted regular calls for information 
sharing among the affected Gulf Coast States. These calls allow State 
Disaster Mental Health and Substance Abuse Coordinators to discuss what 
their local providers are reporting about the behavioral health needs 
of the affected communities and gaps where assistance is needed.
    Overall, States are reporting spreading anxieties, frustrations 
about the ongoing nature of the spill and its economic impact, and 
fears that more severe psychological and social issues will emerge. The 
State behavioral health agencies have also reported to us that they are 
anticipating that the longer-term stressors and economic consequences 
of this disaster could lead to an increase in depression, substance use 
and abuse, family violence, high-risk behavior, suicide, and even a 
resurgence of trauma symptoms from previous events.
    Currently, however, crisis hotlines are not showing significant 
increases in calls, and providers are not reporting marked increases in 
requests for assistance. States, at this point, are requesting guidance 
from the Department on substance use and prevention strategies. Efforts 
are underway at SAMHSA to bring substance abuse prevention and 
treatment expertise and resources to the group in the next call, which 
is scheduled for/was held on June 15. The Department will continue to 
maintain regular contact with the affected State Disaster Mental Health 
Coordinators and with behavioral health partners in the region and will 
provide assistance as gaps and needs are identified.
    The Department has emphasized the need for stress management 
efforts to be included in worker health and safety precautions. Our 
colleagues at the National Institute for Occupational Safety and 
Health--NIOSH--have created a stress information pamphlet for 
distribution to responders that describes a range of potential stress 
reactions and recommendations for monitoring and addressing them. My 
colleague from CDC has described their efforts, and ASPR has been 
working with them to ensure coordination around behavioral health 
concerns.
    The Department is focusing on long-term recovery issues as well. 
The Office of the Assistant Secretary for Health and the Regional 
Health Administrators' offices are actively communicating with Federal, 
State, and regional partners to plan for long-term recovery issues, 
including behavioral health. HHS is actively involved in coordination 
activities related to behavioral health and human services, such as the 
Deepwater Interagency Solutions Group led by the Department of Homeland 
Security.
                               conclusion
    I want to assure the committee that our office, along with our 
sister agencies within the Department, and the Administration as a 
whole, are taking the public health and medical consequences of the oil 
spill disaster very seriously and are implementing a comprehensive 
strategy to monitor and address any public health and medical issues 
that may arise. HHS continues to work in close partnership with 
virtually every part of the Federal Government under a national 
preparedness and response framework for action that builds on the 
efforts and lessons learned from prior response efforts.
    Thank you for your time and interest. I am happy to answer any 
questions.

    The Chairman. Thank you very much, Dr. Kaplowitz.
    Dr. Howard, welcome, and please proceed.

 STATEMENT OF JOHN HOWARD, M.D., DIRECTOR, NATIONAL INSTITUTE 
FOR OCCUPATIONAL SAFETY AND HEALTH, CENTERS FOR DISEASE CONTROL 
   AND PREVENTION, DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
                          ATLANTA, GA

    Dr. Howard. Thank you very much, Mr. Chairman, Ranking 
Member Enzi, and other distinguished members of the committee. 
I'm pleased to provide you with an update on CDC's activities.
    Following the fire and explosion on April 20, CDC 
immediately activated its Emergency Response Center to 
coordinate response activities across the agency. CDC's 
National Center for Environmental Health leads the Incident 
Command and works closely with the National Institute for 
Occupational Safety and Health and CDC to respond to potential 
health threats from the public, from workers, and volunteers.
    As of today, CDC has 170 staff involved in the response, 
including 17 staff deployed to the Gulf States. Throughout this 
response, CDC has been coordinating our efforts with other 
parts of HHS.
    The response issue brings up hazards to the public, 
primarily skin and respiratory irritation to various chemicals 
contained in crude oil and the oil dispersants. Skin contact 
should be avoided. Any area that has come into contact with oil 
should be thoroughly washed. Eye, nose, and throat irritation 
can occur from close contact with crude oil. Those with asthma 
or chronic lung diseases may be more sensitive than--to 
others--to very low levels of hydrocarbons that sometimes cause 
odor sensitivity. Drinking water is not expected to be affected 
by the spill.
    People who have questions about potential health effects 
are invited to look at our Web site, as you've referred to, Mr. 
Chairman, at www.CDC.gov, for more information, or contact 
their local health department.
    CDC, in partnership with local and State health 
departments, is tracking symptoms and health complaints that 
could be associated with the oil spill. Health surveillance of 
populations near the Gulf is being done through three 
mechanisms. First, we're collecting data from 60 Poison Control 
Centers throughout the Gulf region. Second, CDC is collecting 
data from the BioSense surveillance system from 86 healthcare 
facilities throughout the area. And third, we're analyzing 
surveillance data that's being collected by the State health 
departments in the Gulf that are monitoring for potential 
health effects related to the oil spill. We've posted these 
initial results from these collaborative surveillance efforts 
on our Web site, and I invite you to go to that, to look at our 
updated numbers.
    CDC is also evaluating data from air, sediment, and water 
samples in the Gulf, looking for any indication of contaminants 
at levels that would pose a threat to public health. After 
EPA's public release of the chemical components of the 
dispersants being used in the response, CDC has completed a 
preliminary review of the toxicity of these dispersant 
components, and has concluded that the substances of greatest 
concern to human health are being monitored by EPA.
    NIOSH is doing three activities, and is working, together 
with the Occupational Safety and Health Administration, to 
protect workers and volunteers. First, we're rostering all 
workers involved in the response by means of a voluntary 
questionnaire. To date, nearly 13,000 workers have been 
rostered. Second, we're analyzing data from all sources for 
worker symptoms, health complaints, work-related injury and 
illness incidents, so that we can recommend interventions to 
prevent any additional injuries and illnesses. Third, NIOSH is 
conducting a health hazard evaluation of reported illnesses 
among workers involved in offshore cleanup operations, as 
requested by BP on May 28. Finally, as response activities 
proceed, CDC is working to protect the health and safety of 
workers, volunteers, and residents in the affected areas. And 
as we learn more than we do today, NIOSH will update our 
recommendations, NCEH will update their recommendations. CDC 
Web site will reflect all those recommendations.
    So, thank you very much for your continued support, and I'd 
be pleased to answer any questions you may have.
    [The prepared statement of Dr. Howard follows:]
                Prepared Statement of John Howard, M.D.
    Good afternoon, Mr. Chairman, Ranking Member Enzi, and 
distinguished members of the committee. Thank you for inviting me to 
testify today. I am Dr. John Howard, Director of the National Institute 
for Occupational Safety and Health (NIOSH), which is part of the 
Centers for Disease Control and Prevention (CDC) within the U.S. 
Department of Health and Human Services (HHS). I am here today to 
provide an update on CDC's response to the recent Gulf of Mexico oil 
spill and our ongoing efforts to anticipate, monitor and respond to the 
potential health threats to workers and the public.
                  cdc's environmental health response
    On April 20, 2010, after the explosion on the Deepwater Horizon 
leading to the oil spill, CDC's National Center for Environmental 
Health (NCEH) immediately began monitoring the situation. On April 22, 
NCEH staff participated in the National Response Team's activation 
meeting and then formed an oil spill task force to monitor and respond 
to any potential public health hazards associated with the oil spill. 
NCEH quickly posted information for Gulf coast residents on the CDC Web 
site describing the potential health risks associated with the oil 
spill and steps individuals can take to protect their health and 
safety. On May 10, CDC's Emergency Operations Center (EOC) officially 
activated, bringing in personnel from across CDC--including staff with 
expertise in environmental health, occupational safety and health, and 
emergency response--and coordinating CDC's efforts. NCEH is leading the 
EOC incident command and response activities and, together with NIOSH, 
is providing the vast majority of staff engaged in CDC's response 
effort. As of June 14, CDC had 170 staff responding to the oil spill.
Public Health Surveillance
    Within the first few days of the response, CDC, in coordination 
with our Federal, State, and local partners, stepped up our public 
health surveillance activities, looking for possible health effects 
that could be related to the oil spill--whether experienced by workers 
involved in the response and cleanup efforts or by Gulf coast 
residents. NCEH contacted the American Association of Poison Control 
Centers to request that local poison control centers code any calls 
related to the oil spill so that CDC is able to track the number of 
related calls. NCEH started using CDC's BioSense surveillance system--
which analyzes diagnostic and pre-diagnostic health data from clinical 
laboratories, hospital systems, ambulatory care sites, health plans, 
U.S. Department of Defense and Veterans Administration medical 
treatment facilities, and pharmacy chains--to enhance surveillance for 
respiratory health effects in States along the Gulf of Mexico coast. 
NCEH also reached out to the State epidemiologists in Alabama, Florida, 
Louisiana, Mississippi and Texas to ensure open lines of communication, 
coordinate public health surveillance activities, provide weekly 
summaries of surveillance findings, and work together to monitor for 
potential health effects related to the oil spill. CDC posted results 
from these collaborative surveillance activities on the CDC Web site on 
June 10.
    Throughout the response to the oil spill, CDC has closely 
coordinated our efforts with other components of HHS--including the 
Assistant Secretary for Preparedness and Response, the Food and Drug 
Administration (FDA), the National Institutes of Health (NIH), and the 
Substance Abuse and Mental Health Services Administration; other 
Federal partners like the U.S. Coast Guard (USCG), the Department of 
Labor's Occupational Safety and Health Administration (OSHA), and the 
Environmental Protection Agency (EPA); and the Gulf coast States.
    CDC, in partnership with State and local health departments, is 
closely tracking surveillance data across the Gulf coast States for 
health effects that may be related to the oil spill. These surveillance 
systems are being used to track symptoms related to the eyes, skin, and 
respiratory, cardiovascular, gastrointestinal, and neurological 
systems, including worsening of asthma, cough, chest pain, eye 
irritation, nausea, and headache. If the surveillance systems identify 
individuals with these symptoms, State and local public health 
officials will be able to follow up as needed to investigate whether 
there is an association between the symptoms and the oil spill. This 
follow-up is important because the same symptoms could be related to a 
different cause. The agency is also evaluating data from air, sediment, 
and water samples in the Gulf, looking for any indication of 
contaminants--such as volatile organic compounds, semi-volatile organic 
compounds, non-methane organic compounds, metals, particulate matter, 
carbon monoxide, and sulfides--at levels that would pose a threat to 
public health.
Potential Exposure Pathways
    People can be exposed to hazardous substances related to the spill 
by breathing them (air), by swallowing them (food, water), or by 
touching them (skin). Individuals should avoid close contact with oil 
and fumes from any burning oil. Children tend to be more sensitive than 
adults to oil and other forms of pollution. What might be annoying to 
an adult could be a real problem for a child, particularly if the child 
is an infant or toddler, or has a pre-existing condition. If a person 
has concerns about a possible exposure, he or she should seek medical 
attention and phone the poison control center.

    <bullet> Contact: While for most people, brief contact with a small 
amount of oil will do no harm, contact with the oil should be avoided. 
If skin comes in contact with oil, the area should be washed with soap 
and water, baby oil, petroleum jelly, or a cleaning paste for hands 
such as those sold at auto parts stores. Solvents, gasoline, kerosene, 
diesel fuel, or similar products to clean oil off skin should not be 
used. Rashes or dark, sticky spots on the skin that are hard to wash 
off are symptoms that indicate a person should see a doctor or other 
health care provider. If a person gets oil in the eyes, eyes should be 
flushed with water for 15 minutes. If a person swallows oil, he/she 
should not try to vomit it, as this may get oil into the lungs. 
Swallowing small amounts (less than a coffee cup) of oil will cause 
upset stomach, vomiting, and diarrhea, but is unlikely to have long-
lasting health effects.
    <bullet> Smell: People may be able to smell the oil spill from the 
shore. The odor comes from chemicals in the oil that people can smell 
at levels well below those that would make most people sick. However, 
exposure to low levels of these chemicals may cause irritation of the 
eyes, nose, throat, and skin. Those with asthma or other lung diseases 
may be more sensitive to these effects.
    <bullet> Inhalation: If a person inhales oil vapors, or smoke from 
burning oil, he or she should move to an area where the air is clearer. 
If a person has inhaled a lot of vapor or smoke and feels short of 
breath, has chest pain or tightness, or dizziness, he or she should 
seek medical attention.
    <bullet> Burning oil: When responders burn some of the oil, some 
particulate matter (PM) may reach the shore. PM is a mix of very small 
particles and liquid droplets found in the air. PM may pose a greater 
risk for people who have a chronic condition such as asthma or heart 
disease. If a person can smell gas or see smoke or knows that fires are 
nearby, he/she should stay indoors, set the air conditioner to reuse 
indoor air, and avoid physical activities that put extra demands on the 
lungs and heart.
    <bullet> Water: Drinking water and household water are not expected 
to be affected by the spill. However, water used for recreation may be 
affected. Swimming in water contaminated with chemicals from the oil 
spill could cause adverse health effects.
    <bullet> Food: FDA and the Department of Commerce's National 
Oceanic and Atmospheric Administration are constantly monitoring the 
oil spill and its potential impact on the safety of seafood harvested 
from the area. The public should not be concerned about the safety of 
seafood in the stores at this time. Closure of the waters to fishing is 
the key step in preventing tainted fish from entering commerce. In 
addition, FDA is testing seafood at processing facilities in the Gulf 
region to further ensure that contaminated seafood does not reach 
consumers.
             cdc's occupational safety and health response
    As part of CDC's overall response, NIOSH involvement in the oil 
spill response began very early. NIOSH was with OSHA and NIH's National 
Institute of Environmental Health Sciences (NIEHS) in the initial HHS 
response visit to the Gulf during the week of May 3. Since then, NIOSH 
has been providing information to BP, OSHA, the Coast Guard, and other 
Federal and State partners about protecting response workers and 
volunteers from potential occupational safety and health hazards.
Occupational Safety and Health Hazards
    One key challenge in this public health response is that it appears 
that there are seven groups of workers potentially exposed to crude 
oil, weathered oil, chemical dispersants, combinations thereof, and 
other conditions that could pose hazards, and these groups are likely 
to have different exposure profiles. We are working to sort out these 
groups and their exposure differences and similarities. The groups 
include: (1) source control workers; (2) workers on vessels involved in 
burning; (3) workers on vessels not involved in burning; (4) equipment 
decontamination workers; (5) wildlife cleanup workers; (6) on-shore 
cleanup workers; and (7) waste stream workers.
    To date, we believe the key exposures and hazards for these groups 
of workers include:

    <bullet> Heat stress;
    <bullet> Dermal exposure to oil, which is a skin irritant;
    <bullet> Fatigue (we know that disaster response and recovery 
workers often work longer shifts and more consecutive shifts than the 
typical 40-hour work week, which may increase the risk of occupational 
injuries and accidents and can contribute to poor health);
    <bullet> Potential exposure to chemicals, including benzene and 
other volatile organic compounds (VOCs), oil mist, polycyclic aromatic 
hydrocarbons (PAHs), and diesel fumes;
    <bullet> Sprains, strains and lacerations; and
    <bullet> Psychological stress.

    To protect workers and volunteers against these occupational safety 
and health hazards and to better understand the threats posed by these 
hazards, NIOSH has undertaken a number of activities, including: 
supporting safety and health training of response workers; developing 
recommendations for the use of Personal Protective Equipment (PPE); 
rostering and monitoring responders; collecting and evaluating 
occupational exposure data; conducting a Health Hazard Evaluation of 
workers; and researching the toxicity of potential exposures.
Supporting Safety and Health Training of Response Workers
    To emphasize prevention through training, NIOSH has worked with 
OSHA and NIEHS to devise recommendations for worker training materials. 
Before being employed and before receiving an ID badge, all cleanup 
workers must complete between one to four training modules of classroom 
training, depending on their job assignment. These modules have been 
approved for use in this event by OSHA in compliance with the OSHA 
hazardous waste operations and emergency response standard (29 CFR 
1910.120, and OSHA Compliance Directive CPL 2-2.51).
    NIOSH has been advising OSHA, BP, and other health and safety 
personnel about the capabilities of different types of Personal 
Protective Equipment (PPE), and has helped BP develop a matrix for 
selecting appropriate PPE. The type of protective equipment that is 
appropriate for each worker to use depends upon the circumstances of 
that worker's particular job and the mix of oil and dispersants to 
which the worker may be exposed. NIOSH also has developed fact sheets 
targeted to oil spill responders to describe the health risks posed by 
the use of dispersants and the risk of stress associated with 
responding to a traumatic event like this. These fact sheets are 
available on the CDC Web site at: http://www.cdc.gov/niosh/topics/
oilspillresponse/.
Developing Recommendations for the Use of Personal Protective Equipment
    To protect response workers from potential adverse health effects 
arising from their work, NIOSH recommends appropriate engineering 
controls (e.g., picking up tarballs with a scoop rather than by hand) 
and administrative controls (e.g., limiting the number of workers in 
areas with great exposure potential), as well as the use of task-
specific PPE, including protective eyewear, clothing, gloves, and 
footwear. Selection of appropriate PPE requires: (1) identification of 
the hazards faced by workers (e.g., heat stress, fatigue, inhalational 
and skin exposure to crude oil and its constituents, chemical 
dispersants, and cleaning solvents, and musculoskeletal injuries); (2) 
analysis of the specific job tasks performed by workers (e.g., source 
control; surface control, such as laying boom, burning crude oil, and 
sheen busting; shoreline and marsh cleaning; and decontamination of 
personnel, equipment or wildlife); and (3) assessment of the risks that 
specific tasks present for workers.
    VOCs, which may be more likely to be present at or near the oil 
leak source, pose a greater risk of inhalational exposure than the risk 
encountered in ``aged'' or ``weathered'' crude oil that may be 
encountered on or near the shoreline. Weathered crude contains mostly 
higher molecular weight, very low volatility hydrocarbon constituents 
of crude oil. When oil is deposited on shore, use of gloves and 
protective clothing to prevent dermal contact is recommended, but such 
deposits (referred to as ``tarballs'' or ``tarpatties'') are unlikely 
to pose inhalation risks. So, recommendations for respiratory 
protection and other PPE are not clear-cut and will vary depending on 
the characteristics of the oil, the type of work being done, and the 
magnitude of exposure. NIOSH and OSHA are currently working together on 
a respiratory protection policy.
    It is important to note that in recent years several studies of 
previous oil spill response efforts have reported acute and chronic 
health effects in response workers. These studies may underestimate the 
health effects associated with oil response work since the magnitude 
and duration of the Deepwater Horizon response is unprecedented. At 
this time, there has been no comprehensive assessment of all response 
worksites in the Gulf, and as a result, we have an incomplete 
understanding of the human health toxicity associated with exposure to 
large amounts of dispersants and the toxicity associated with mixed 
exposure to large amounts of crude oil and dispersants together. This 
means that knowledge about potential exposures to the mixed exposure of 
crude oil and dispersant associated with the Deepwater Horizon response 
work is still evolving. Therefore, NIOSH believes it is prudent to 
reduce the potential for such adverse health effects by the responsible 
use of administrative controls and PPE.
Rostering and Monitoring Responders
    NIOSH is administering surveys to thousands of response workers who 
are participating in the recovery efforts in an effort to compile a 
roster of individuals involved in the response. The purpose of this 
roster is to obtain an accurate record of who is participating in the 
cleanup. The information collected in this roster would be vital for 
possible future studies to determine whether health conditions that may 
develop in the future are associated with occupational exposures during 
the cleanup. A roster is an important tool to capture site-specific 
information, such as a worker's job task, time on task, available 
exposure information, use of PPE, and other related factors. 
Participation in the survey is voluntary, and once the information is 
collected, NIOSH will protect individuals' personally identifiable 
information as confidential to the extent allowed by the law.
    It has been challenging to enroll workers due to the different 
locations of the training sites. To date we have visited all the 
staging areas in Louisiana to roster workers, and we are currently 
enrolling workers in Mississippi, Alabama, and Florida. Through our 
rostering efforts, we have already captured information from more than 
11,000 workers responding to this event. In an attempt to reach all 
cleanup workers, the survey is being administered in English, Spanish, 
and Vietnamese. A copy of the survey is included as Exhibit 1.
Collecting and Evaluating Occupational Exposure Data
    NIOSH is also gathering and evaluating occupational safety and 
health data for Gulf response workers, including:

    <bullet> Demographic and role specific survey data collected from 
the rostering of workers involved in the response, as discussed 
earlier;
    <bullet> Epidemiologic survey data collected from rostered workers 
who may have health symptoms resulting from their response 
participation (signs and symptoms of injury, illness or job stress); 
and
    <bullet> Scientific/epidemiologic industrial hygiene data collected 
from workers in the workplace (i.e., measures of physical, biological 
or medical conditions in the workplace which may possibly be harmful) 
through a Health Hazard Evaluation that NIOSH is conducting.

    NIOSH is also evaluating data collected by the EPA, OSHA, other 
Federal agencies, State agencies, and BP, including:

    <bullet> Personal monitoring data from work environments on-shore, 
aboard vessels, and upon off-shore work platforms;
    <bullet> Response worker injury and illness incidence reports: 
NIOSH is currently collecting and characterizing all of the acute 
injury and illness incidents recorded by BP to identify trends and 
recommend interventions to prevent additional injuries and illness; and
    <bullet> Injury and illness data on BP's employees, contract 
employees, Federal, State, and local responders, and volunteers who 
seek care at a BP medical facility. NIOSH is recoding BP's data into a 
standardized reporting format.
Conducting a Health Hazard Evaluation of Workers
    NIOSH has a unique opportunity to assess these occupational safety 
and health hazards and others that may arise as we conduct a Health 
Hazard Evaluation (HHE) of reported illnesses among workers involved in 
offshore cleanup operations, as requested by BP on May 28. Several 
NIOSH staff members have been deployed to the Gulf coast to work on 
this HHE, including industrial hygienists, who are assessing exposures 
through observation, industrial hygiene assessments, and evaluation of 
work practices and use of PPE, and medical officers, who are evaluating 
illnesses and injuries among groups of offshore workers. The Louisiana 
Department of Health and Hospitals has agreed to provide medical 
reports of seven previously hospitalized fishermen for NIOSH physicians 
to review. Once the HHE is completed, NIOSH will compile the findings 
and recommendations in a report that will be provided to employer and 
employee representatives, and it will be publicly available on the 
NIOSH Web site.
Researching the Toxicity of Potential Exposures
    NIOSH is also conducting laboratory research to address reports of 
workers with respiratory symptoms and headaches by initiating toxicity 
studies of both crude oil and chemical dispersants. This research will 
seek to determine the acute pulmonary, central nervous system, and 
cardiovascular responses to inhalation of dispersants, oil 
constituents, and the combination of the two, and the results will help 
inform the development of prevention strategies. We anticipate that 
preliminary data may be available by the end of the summer. NIOSH also 
has proposed a study to address concerns regarding skin exposure and 
the handling of oil during beach cleanup.
                               conclusion
    Regardless of the final size and extent of the spill, it is already 
evident that response and cleanup activities will be underway in the 
Gulf for an extended period of time, and thus we must remain vigilant 
to protect response and recovery workers, volunteers and the public 
from potential exposures to oil, its constituents, and dispersants. CDC 
continues to work diligently to protect the health and safety of 
workers and residents along the Gulf coast. This oil spill underscores 
the importance of CDC's work and the continued need for further health 
and safety research. It is important to protect against potential 
health hazards now so that we do not have to study chronic health 
effects associated with this spill in the future. Therefore, the 
occupational and environmental hazards associated with the oil spill 
must be identified, monitored, evaluated and addressed. As this 
situation evolves and we learn more about the potential health hazards, 
CDC will update our recommendations for how to protect the health of 
those living and working along the Gulf coast. I appreciate the 
opportunity to describe CDC's response activities in the Gulf of 
Mexico. Thank you for your continued support. I am pleased to answer 
any questions you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Dr. Howard.
    And now we turn to Dr. Miller.
    Welcome, Dr. Miller. Please proceed.

  STATEMENT OF AUBREY KEITH MILLER, M.D., MPH, SUPERVISOR FOR 
  PUBLIC HEALTH SCIENCE, NATIONAL INSTITUTE OF ENVIRONMENTAL 
 HEALTH SCIENCES, NATIONAL INSTITUTES OF HEALTH, DEPARTMENT OF 
           HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Dr. Miller. Thank you, Chairman Harkin, Ranking Member 
Enzi, and distinguished members of the committee. Thank you for 
the opportunity to provide information about the activities 
undertaken by the National Institute of Environmental Health 
Sciences in response to the oil spill disaster in the Gulf of 
Mexico.
    My name is Aubrey Miller. I am senior medical advisor to 
the Director of NIEHS and the National Toxicology Program.
    While extensive data exists on the effects of oil spills on 
wildlife and ecosystems, the effects on human health from these 
exposures have not been well-studied. Experts agree that the 
potential for a human health hazard exists, since crude oil and 
chemicals being used to fight the spill contain harmful 
substances, yet understanding and quantifying these effects 
requires further study.
    A recent review article which looked at 34 publications 
concerning health effects related to past oil tanker spills 
made clear that there is very little data concerning exposed 
individuals, and only for a handful of these incidents. 
Historically, the workers involved in such cleanups have 
reported the highest level of exposure and most acute symptoms. 
Reporting of higher levels of respiratory symptoms was observed 
in fishermen who participated in the cleanup following the 
Prestige tanker accident off the coast of Spain.
    A few studies have looked at psychological effects of 
spills, both among workers and in affected communities. Follow 
up studies of affected populations from the Exxon Valdez spill, 
for example, reported higher levels of anxiety disorder, 
posttraumatic stress disorder, and depression. Such research 
findings remind us of the importance of keeping longer-term, 
less obvious sequelae in mind, and not just the immediate 
toxicity effects, when considering the overall health impact of 
this type of disaster.
    Now, turning our attention to the Gulf oil spill response, 
the NIEHS team was on site within days of the platform 
explosion, and had a continuous presence in Louisiana. They 
have been working with the National Incident Command officials, 
as well as local and State officials, academic institutions, 
and other Federal agencies, to provide technical assistance for 
worker training and safety related to the oil spill through 
NIEHS's Superfund Worker Training Program. This program has 
provided safety training to emergency responders and hazard 
materials workforce for the last 23 years. For other emergency 
responses, such as the World Trade Center attack, and now the 
oil spill, NIEHS was able to provide nearly immediate 
assistance to help protect workers.
    Three different levels of training for oil spill workers 
have been developed and supported by NIEHS: a 40-hour training 
course on hazardous waste operations and emergency response, 
short 2- and 4-hour training courses on safety and health 
awareness, developed together with OSHA. And as of June 10, BP 
reports that it has trained approximately 30,500 workers using 
NIEHS worker safety and training materials or modules.
    Additionally, more than 5,000 pocket-sized booklets, titled 
``Safety and Health Awareness for Oil Spill Cleanup Workers,'' 
have been distributed to instructors, safety officials, beach 
workers and those working for BP in the Vessels of Opportunity 
Program. These booklets have been printed in English, Spanish, 
and Vietnamese. Here are some copies of them to look at.
    NIEHS has helped support and facilitate interagency 
coordination to protect workers and the public affected by this 
disaster, including facilitation of a Federal multiagency 
public health assessment of the oil spill responders in the 
Louisiana area to determine the need for any additional medical 
support or additional medical mobile units. NIEHS is co-leading 
an interagency workgroup, and, within this workgroup we are 
directly focused on identifying all the relevant health and 
toxicological information to help inform our current actions 
and drive research efforts, and, two, developing new tools and 
research to gather essential information about adverse health 
effects stemming from the oil spill, both in the short-term and 
long-term.
    And last, NIEHS is exploring a variety of different funding 
mechanisms and programs to carry out important research related 
to this particular disaster and the people whose health may be 
affected. We expect a number of researchers to apply 
immediately for our time-sensitive awards, where proposals are 
accepted each month, and reviewed and funded within 3 months.
    One of the most important takeaway messages from our 
current and ongoing review of the science regarding human 
health effects of oil spill disasters is that there is a clear 
need for additional health monitoring and research to underpin 
our public health decisions as a committed partner in ongoing 
efforts to keep our cleanup workers safe and in essential 
research concerning the health effects of those who are 
exposed.
    Thank you, and I'm happy to answer your questions.
    [The prepared statement of Dr. Miller follows:]
          Prepared Statement of Aubrey Keith Miller, M.D., MPH
    Chairman Harkin, Ranking Member Enzi, and members of the committee, 
thank you for the opportunity to provide information about the 
activities undertaken by the National Institute of Environmental Health 
Sciences (NIEHS), part of the National Institutes of Health (NIH), an 
agency of the Department of Health and Human Service (HHS), in response 
to the oil spill disaster in the Gulf of Mexico. My name is Aubrey 
Miller, and I am Senior Medical Advisor to the Director of the NIEHS. I 
will give you a brief overview of our understanding of possible human 
health effects of exposures related to the Gulf oil spill, a preview of 
some of our planned research, a description of how NIEHS is working 
with our agency partners to facilitate and support needed health 
monitoring and research activities to further our understanding and 
hopefully prevent adverse health effects among workers and exposed 
communities, and a report on NIEHS' s early and ongoing role in helping 
to protect oil spill workers.
                effects on human health from oil spills
    I would like to first provide a brief overview of our understanding 
of the human health effects associated with oil spills. While experts 
agree that potential for human health hazard exists, since both crude 
oil and the chemicals being used to fight the spill contain harmful 
substances, understanding and quantifying these effects requires 
further study.
    Determination of actual exposure and risk is not a trivial task. To 
begin with, the composition of the spilled oil changes over time. The 
oil nearest the source of a spill contains higher levels of some of the 
more volatile and more toxic components, such as benzene, toluene, and 
xylene. These and other volatile organic compounds (VOCs) are well-
known chemical hazards that can cause acute toxicity as well as longer 
term health effects such as cancer, birth defects, and neurological 
effects. Oil that has been exposed to air and water for a period of 
time, so-called ``weathered oil,'' has lost most of these VOCs. 
Nonetheless, weathered oil still contains other hazardous chemicals 
such as polycyclic aromatic hydrocarbons and heavy metals, such as 
nickel and lead, and therefore should be handled with skin protection. 
If aerosolized by wind and weather, it also could be taken into the 
body through respiration.
    Other potential sources of toxicity exist due to the use of 
dispersants, but there is little information on the precise level of 
risk to public health that dispersants present when utilized on such a 
large scale. Different routes of exposure must also be considered, such 
as respiratory exposure, skin exposure, and ingestion. Different levels 
of exposure and risk are associated with different exposure routes for 
individuals who may come in contact with the oil in a variety of ways, 
such as working on a boat, or doing cleanup on a beach, or through 
living in a nearby community.
    In a recent article in the Journal of Applied Toxicology, the 
authors reviewed the results of studies of human health effects related 
to oil tanker spills as reported in 34 publications.\1\ The clearest 
conclusion from the examination of these studies is that we have very 
little data; follow up of exposed people has occurred only for a 
handful of the tanker spill incidents from the past several decades. 
Historically, the workers involved in cleanup have reported the highest 
levels of exposure and the most acute symptoms, when compared to 
subjects exposed in different ways, as seen in the reporting of higher 
levels of lower respiratory tract symptoms in fishermen who 
participated in cleanup following the Prestige tanker accident off the 
coast of Spain.\2\ Other studies have looked at psychological effects 
of spills, both among workers and in affected communities; follow-up 
studies of affected populations from the Exxon Valdez spill, for 
example, reported higher levels of generalized anxiety disorder, post-
traumatic stress disorder, and depressive symptoms.\3\ Such research 
findings remind us of the importance of keeping longer term, less 
obvious sequelae in mind, not just the immediate toxicity effects, when 
considering the overall human health impact of this type of disaster.
---------------------------------------------------------------------------
    \1\ Aguilera F, Mendez J, Pasaro E, Laffon B. (2010) Review on the 
effects of exposure to spilled oils on human health. J Appl Toxicol 
30:291-301.
    \2\ Zock JP, Rodriguez-Trigo G, pozo-Rodriguez F, Barbera JA, Bouso 
L, Torralba Y, Anto JM, Gomez FP, Fuster C, Verea HS, SEPAR-Prestige 
Study Group. (2007) Prolonged respiratory symptoms in clean-up workers 
of the Prestige oil spill. Am J Resp Crit Care 176:610-616.
    \3\ Palinlcas LA, Petterson JS, Russell J, Downs MA. (1993) 
Community patterns of psychiatric-disorders after the Exxon-Valdez oil 
spill. Am J Psychiat 150:1517-1523.
---------------------------------------------------------------------------
                          nih-funded research
    NIH is exploring a variety of different funding mechanisms and 
programs to carry out what will be important research related to this 
particular disaster and the people whose health may be affected by it. 
We hope that such research findings provide useful information for some 
of the unanswered questions discussed above.
    NIEHS has a grant program for time-sensitive research and community 
education. We shall use this program to quickly fund research on the 
public health impact of the oil spill on affected populations in the 
region. Topics to be considered for funding are environmental 
monitoring and characterization related to the Gulf oil spill; toxicity 
testing of complex mixtures using high-throughput techniques and 
innovative statistical approaches; exposure assessment for individuals 
and populations; research on short-term health effects, including 
respiratory effects, irritants, and changes in immune function; long-
term health effects, such as risk of cancer, adverse pregnancy 
outcomes, and neurodevelopmental effects in children; and risk 
assessment research, including understanding the unique risks of 
vulnerable populations, such as children, pregnant women, the elderly, 
and people with chronic health problems. NIEHS is coordinating with 
other Federal agencies, including the Environmental Protection Agency 
(EPA), to appropriately disseminate the results of this research and to 
avoid duplication of effort.
    NIEHS also co-funds Centers for Oceans and Human Health with the 
National Science Foundation (http://www.niehs.nih.gov/research/
supported/centers/oceans/index.cfm). The Centers have responded to the 
oil spill in various ways, such as providing expertise to local and 
State health departments, monitoring beach conditions in real-time, and 
dispatching researchers to the coast for water and wildlife sampling 
and analyses. Additional ``rapid response'' funds have also been 
provided by NSF to help carry out these efforts.
    Also, NIH's National Center on Minority Health and Health 
Disparities (NCMHD) is supporting a consortium of seven medical and 
public health institutions that will expand and connect research 
projects to help Gulf Coast communities prepare for and recover from 
weather-related disasters, epidemics and environmental health threats. 
Projects by members of the SECURE (Science, Education, Community United 
to Respond to Emergencies) consortium include development of technology 
to enhance surveillance systems for early health and environmental 
warnings and to guide the efforts of first-responders during and after 
a disaster, arrangement of post-disaster health care, training programs 
to improve preparedness through community groups and schools, and post-
traumatic stress counseling.
    NIEHS, along with other HHS agencies, will keep a close accounting 
of costs and will identify funds from existing resources for research.
      niehs leadership activities on interagency oil spill health 
                         monitoring workgroups
    NIEHS has leveraged our existing relationships, rapid worker 
training response, toxicology expertise, and research programs to help 
support and facilitate interagency coordination and the overarching 
mission to protect the workers and the public affected by this 
disaster.
    To help assess the response to the oil spill crisis, on June 1, 
2010, NIEHS, in cooperation with the U.S. Coast Guard (USCG) and BP, 
facilitated a Federal multi-agency public health assessment of the oil 
spill responders in the Louisiana area to determine the need for any 
additional medical support or additional mobile medical units. The 
team, which included the Assistant Secretary for Preparedness and 
Response (ASPR) and the Director of the National Institute for 
Occupational Health (NIOSH) within HHS, as well as the Deputy Assistant 
Secretary for the Occupational Safety and Health Administration (OSHA), 
met with Unified Command leaders and toured beach cleanup operations in 
Port Fourchon, LA.
    Furthermore, NIEHS helped form and is co-leading an interagency 
workgroup, the ``Interagency Oil Spill Health Monitoring and Research 
Workgroup,'' which includes HHS representatives from: the Assistant 
Secretary for Preparedness and Response (ASPR); NIOSH, the National 
Center for Environmental Health, and the Agency for Toxic Substances 
and Disease Registry (all within the Centers for Disease Control and 
Prevention); and the Substance Abuse and Mental Health Services 
Administration. Within this workgroup NIEHS is directly focused on: (1) 
identifying all the relevant human health and toxicological information 
to help inform our current actions and drive needed intramural and 
extramural research efforts; (2) developing new tools, such as health 
surveys and medical tests, to gather essential information about 
adverse health effects stemming from the oil spill, both in the short 
term and long term; and (3) engaging additional stakeholders, through 
our network of existing governmental, academic, and nongovernmental 
organizations to work with us in this effort to produce the best 
process, products, and outcomes.
                 safety training for oil spill workers
    For 24 years, NIEHS has administered a Worker Training Program 
under its Superfund authority. The program has provided safety training 
to emergency responders and the hazardous materials workforce, and we 
were able to provide nearly immediate assistance in the oil spill 
response through this program.
    Our program director, Chip Hughes, was on site within days of the 
platform explosion. Hughes and his team have had a continuous presence 
in Louisiana and have been working with USCG, OSHA, and BP officials, 
as well as local and State officials, academic institutions, and other 
Federal agencies to provide worker safety training.
    Three different levels of training for oil spill workers have been 
developed and supported by NIEHS. As of June 10, 2010, BP reports that 
it has trained approximately 30,500 workers using the NIEHS worker 
safety training materials:

    <bullet> A 40-hour Training Course on Hazardous Waste Operations 
and Emergency Response. This is commonly known as HAZWOPER training. 
This is part of our regular, ongoing worker training offered through 
NIEHS and OSHA. This extensive training is now being delivered to 
supervisors and individuals who will likely have direct contact with 
oil spill products. More than 1,040 people in the Gulf Coast region 
have completed the HAZWOPER training.
    <bullet> Short 2- and 4-hour training courses on Safety and Health 
Awareness. NIEHS, together with OSHA, helped develop several short 
educational courses, including some online training, which focus on the 
necessary hazard awareness and safety training for all oil spill 
workers hired by BP. This training is provided to individuals who will 
have minimal contact with oil spill products. These courses provide 
training on safe work practices, personal protective equipment, 
decontamination, heat stress and other common hazards for cleanup work. 
As of June 10, approximately 29,500 workers throughout the Gulf Coast 
have completed these training courses, according to BP reports. The 
training is being paid for and administered by BP. The courses are 
being provided in English, Spanish and Vietnamese. OSHA is also working 
with BP to develop a new 8-hour curriculum for worker safety and health 
training.

    Additionally, more than 5,000 pocket-sized booklets titled ``Safety 
and Health Awareness for Oil Spill Cleanup Workers'' have been 
distributed to instructors, safety officials, front-line responders 
participating in the BP Vessels of Opportunity Program, and beach 
workers in the Shoreline Cleanup assessment Team. The booklets also 
have been printed in English, Spanish and Vietnamese.
    All of the NIEHS worker training resources and materials are 
available on our Web site at www.niehs.nih.gov/oilspill. In addition to 
our worker education and safety efforts, NIEHS has proactively pursued 
several avenues including rapid promotion of individual NIH-funded 
research programs and collaborative interagency engagement to help 
close our knowledge gaps and foster the research needed to support 
science-based public health decisions and actions.
                               conclusion
    One of the most important take-away messages from our current and 
ongoing review of the science regarding human health effects of oil 
spill disasters is that there is a clear need for additional health 
monitoring and research to underpin our collective understanding and 
public health decisions. As the situation in the Gulf of Mexico 
continues to unfold, NIEHS will stay engaged, both as a committed 
partner in research on the health effects of these exposures on workers 
and affected communities and in its efforts to help keep our cleanup 
workers safe.
    Thank you, and I am happy to answer your questions.

    The Chairman. Thank you very much, Dr. Miller.
    Now we'll turn, last, to Mr. Taylor, from the Food and Drug 
Administration.
    Mr. Taylor, welcome back.

 STATEMENT OF MICHAEL R. TAYLOR, J.D., DEPUTY COMMISSIONER FOR 
      FOODS, FOOD AND DRUG ADMINISTRATION, WASHINGTON, DC

    Mr. Taylor. Thank you, Mr. Chairman, Ranking Member Enzi 
and members of the committee. I am pleased to have the chance 
to discuss with you today FDA's safety activities in response 
to this really tragic event in the Gulf.
    As you indicated, FDA is an integral part of the Federal 
Government's comprehensive multiagency approach to protect the 
safety of seafood from the Gulf of Mexico, following the oil 
spill. This program is important for consumers who need to know 
their food is untainted, and for the fishing industry, which 
needs to be able to sell its products with confidence. FDA is 
working closely with NOAA, with the Environmental Protection 
Agency, with our sister agencies in HHS, and with State 
authorities, on a multi-pronged approach to ensure the safety 
of seafood from the Gulf of Mexico.
    These measures we are taking include the precautionary 
closure of fisheries, backed up by surveillance and testing of 
seafood products and continued enforcement of FDA's Hazard 
Analysis and Critical Control Point, or HACCP, regulations. FDA 
and NOAA are also working together to develop protocols for 
reopening closed Gulf fisheries in a manner that ensures the 
safety of product from those areas. We are confident that Gulf 
of Mexico's seafood in the market today is safe to eat.
    The primary preventive measure for protecting the public 
from potentially contaminated seafood is, of course, the 
closure by NOAA of fishing areas in the Gulf that have been, or 
are likely to be, affected by the oil spill. NOAA acted 
swiftly, after the spill, to close affected waters, and NOAA 
has been able to stay ahead of the spill by anticipating its 
movement and by including a 5-mile buffer zone around the 
affected areas. FDA is working with both NOAA and the States to 
ensure that appropriate closures are in place.
    To verify the effectiveness of the closures in protecting 
the safety of seafood, NOAA and FDA are collecting and testing 
a variety of types of seafood samples, including finfish, 
shrimp, crabs, and shellfish. FDA sampling is taking place at 
Gulf Coast seafood processors and is targeting, specifically, 
oysters, crabs, and shrimp, which could retain contaminants 
longer than finfish. This sampling will provide verification 
that the closures are working and that seafood on the market is 
safe to eat.
    As an extra measure of protection, as I indicated, to 
complement the closures and testing, FDA is stepping up 
inspections of seafood processors under our seafood HACCP 
regulation. HACCP is, as you know, a system of preventive 
controls under which seafood processors are required to 
identify and control potential food safety hazards in their 
operations.
    We have just re-issued existing guidance to Gulf Coast 
seafood processors, explaining how they can meet their 
obligation, under the HACCP regulations, to ensure that they 
are not receiving fish from waters that are closed by Federal 
or State authorities. FDA will be inspecting those facilities 
to verify compliance.
    Finally, NOAA and FDA are working closely with the States 
on a protocol for determining when closed waters can be 
reopened. Under the protocol, waters impacted by oil will not 
reopen until oil from the spill is no longer visible, 
observably present, and seafood samples from the area have 
successfully passed both sensory analysis by trained screeners 
and chemical analysis to verify the oil products are not 
present at harmful levels. NOAA and FDA will work to reopen 
previously closed areas as quickly as possible in order to 
minimize the impact of closures on fishermen and coastal 
communities while protecting public health.
    Mr. Chairman, we are all indebted to the scientists and 
front-line food safety specialists in our agencies and in State 
Governments along the Gulf for their diligent and ongoing 
response to this catastrophic oil spill. I appreciate the 
opportunity, on their behalf, to discuss these activities, and 
look forward to your questions.
    Thank you.
    [The prepared statement of Mr. Taylor follows:]
             Prepared Statement of Michael R. Taylor, J.D.
                              introduction
    Mr. Chairman and members of the committee, I am Michael Taylor, 
Deputy Commissioner for Foods at the Food and Drug Administration (FDA 
or the Agency), an agency of the Department of Health and Human 
Services. Thank you for the opportunity to discuss FDA's role in 
helping to protect the American public from negative health impacts of 
the Deepwater Horizon oil spill.
    FDA is an active and integral part of the Federal Government's 
comprehensive, coordinated, multi-agency program to ensure that seafood 
from the Gulf of Mexico is free from contamination as a result of the 
spill. This program is important not only for consumers who need to 
know their food is untainted, but also for the fisheries industry, 
which needs to be able to sell its products with confidence.
    On May 17, FDA established an Incident Management Group (IMG) to 
oversee and effectively coordinate issues related to the oil spill. The 
IMG is coordinating activities and monitoring issues that include fish 
and shellfish safety, protocols for the testing of seafood samples, and 
requests from Federal and State agencies for FDA assistance.
    FDA is working closely with the National Oceanic and Atmospheric 
Administration (NOAA), the Environmental Protection Agency (EPA), other 
Federal agencies, and State authorities in the regions affected by the 
oil spill. We are taking a multi-pronged approach to ensure that 
marketed seafood from the Gulf of Mexico is not contaminated. These 
measures include the precautionary closure of fisheries, surveillance 
and testing of seafood products, and FDA's Hazard Analysis and Critical 
Control Point (HACCP) regulations. Beyond our immediate concern with 
ensuring that currently marketed seafood is free of contamination, FDA 
and NOAA are developing strict protocols for re-opening closed Gulf 
fisheries, in a manner that ensures the safety of product from those 
areas.
                                closures
    The primary preventative control for protecting the public from 
potentially contaminated seafood is the closure of fishing areas in the 
Gulf that have been or are likely to be affected by the oil spill. NOAA 
has the authority to close Federal waters to commercial and 
recreational fishing, and States have the authority to close waters 
within their State jurisdictional limits. FDA is working with both NOAA 
and the States to ensure that appropriate closures are in place.
    On May 2, 2010, NOAA closed to fishing a portion of Gulf waters (3 
percent of the Gulf of Mexico Exclusive Economic Zone (EEZ)) that were 
known to be affected by oil, either on the surface or below the 
surface, as well as areas projected to be affected by oil within 72 
hours and a 5-nautical mile safety zone around those areas. Due to the 
evolving nature of the spill, NOAA has continued to revise the closed 
area, which, as of June 14, encompasses 32.3 percent of the Gulf EEZ. 
The States of Alabama, Louisiana and Mississippi have closed portions 
of their coastal waters to recreational and commercial fishing and the 
States of Florida and Texas are closely monitoring their waters in 
conjunction with FDA and other agencies.
                              surveillance
    NOAA is collecting a variety of types of seafood samples including 
finfish, shrimp, crabs, and shellfish from the Gulf for analysis. NOAA 
is actively monitoring seafood caught just outside of closed Federal 
areas, and testing it for both petroleum compounds and dispersants, to 
help ensure that NOAA's closed areas are sufficiently protective to 
prevent the harvest of tainted fish. FDA will be testing seafood 
collected from State waters by the respective State agencies.
    Samples are compared to the baseline samples from unaffected areas, 
as well as samples taken after Hurricanes Katrina and Rita. These 
baseline and post hurricane samples demonstrate that Gulf seafood had 
low levels of polycyclic aromatic hydrocarbons (PAH), a primary 
contaminant of concern in oil, prior to the spill. They provide a 
comparative standard for safety in the region following the spill.
    FDA is implementing a surveillance sampling program targeting 
seafood products at Gulf Coast seafood processors. The Agency will be 
targeting oysters, crabs and shrimp, which could retain contaminants 
longer than finfish. This sampling will provide verification that 
seafood on the market is not contaminated from the spill.
                                testing
    FDA and NOAA bring considerable technical expertise to this 
situation in terms of collecting and analyzing seafood. The testing 
already underway and being planned covers several areas. These include 
baseline testing of seafood in oil-free areas for future comparisons; 
surveillance testing to ensure that seafood from areas near to closed 
fisheries are not contaminated; testing as part of the re-opening 
protocol to determine whether an area is producing seafood safe for 
consumption; and market testing to ensure that the closures are keeping 
contaminated food off the market. Results of the testing and sampling 
times and locations will be made available to the public.
    Testing involves two steps--including both a sensory and a chemical 
analysis of fish and shellfish. The sensory standard for comparison is 
based on samples of surface water mixed with a combination of oil and 
dispersants. Sensory experts check the scent and look of raw seafood, 
and the taste and scent of cooked seafood. Chemical analysis of oil 
allows scientists to conclusively determine whether contaminants are 
present in fish or shellfish tissue that would be consumed, and if so 
at what level, and whether the contaminants are due to the spill or 
related clean-up activities. The current science does not suggest that 
dispersants bioaccumulate in seafood. NOAA, however, is conducting 
studies to look at that issue. FDA will be closely reviewing the 
results of those studies. If the studies provide new information, that 
will be taken into consideration in management of the effects of the 
spill with regard to seafood safety.
    FDA has deployed its Mobile Chemistry Laboratory to the Florida 
Department of Agriculture in Tallahassee, which will be used to run 
chemical analyses of samples collected by States for select volatile 
organic compounds. The technique will screen seafood samples for 
volatile head-space chemical compounds that may be indicative of 
petroleum taint. Positive results from these tests will trigger further 
chemical analysis for PAH. FDA has seven employees currently deployed 
to the Mobile Lab.
    FDA's Arkansas Regional Laboratory has begun to test Gulf seafood 
samples collected by States, while three additional FDA field 
laboratories and State labs in California, Florida, Arizona and 
Wisconsin that are members of FDA's Food Emergency Response Network 
(FERN) continue to work on the implementation of testing protocols and 
methodology for PAH. These laboratories are expected to be ready to 
begin running samples by the end of June, and additional State and 
Federal labs are also preparing to assist in the sample analysis.
    Samples collected by NOAA from Federal waters for surveillance or 
associated with re-opening Federal waters will be analyzed by NOAA 
laboratories or inspection personnel using the same methodology and 
protocols.
                                 haccp
    The existing framework of FDA's Seafood HACCP program is proving 
its value in the context of this extraordinary public health effort. 
These science-based regulations, issued in 1997, initiated a landmark 
program to increase the margin of safety that U.S. consumers already 
enjoyed and to reduce seafood-related illnesses to the lowest possible 
levels.
    The FDA's seafood HACCP regulation requires processors to identify 
and control hazards which are reasonably likely to occur. FDA will re-
issue existing guidance to seafood processors that explains how they 
can meet their obligation under the regulation to ensure that they are 
not receiving fish from waters that are closed by Federal or State 
authorities. The Agency is also increasing inspections of facilities 
that may be processing seafood from affected areas.
                               reopening
    FDA and NOAA are working to refine a protocol that sets the health 
standard for what seafood in the Gulf is considered safe to consume, as 
well as a process for determining when closed Federal waters can be re-
opened. Under the protocol, waters impacted by oil will not re-open 
until oil from the spill is no longer observable and seafood samples 
from the area successfully pass both sensory analysis by trained 
screeners and chemical analysis to ensure there are no harmful oil 
products found in them. With respect to PAH and other possible chemical 
contaminants, the re-opening criteria include quantitative limits that 
will help ensure that seafood harvested from re-opened waters will be 
as safe as seafood taken prior to the oil spill.
    FDA will work with NOAA to facilitate the re-opening of previously 
closed areas as quickly as possible in order to minimize the impact of 
closures on the fishing industry and coastal communities. The two 
agencies have held multiple discussions with State officials from 
Texas, Louisiana, Mississippi, Alabama, and Florida to discuss the 
protocol for re-opening waters closed in response to the oil spill. We 
are confident that the protocol used to re-open Federal waters can also 
be used to assess the safety of State harvest waters before they are 
re-opened by State agencies.
    NOAA and FDA have provided a working draft of the re-opening 
protocol to the affected Gulf Coast States. Along with the protocol, 
Federal agencies are working to provide the States with all of the 
baseline data from areas where oil from the Deepwater Horizon spill had 
not yet reached. Each sample location was selected to represent the 
spectrum of seafood species and conditions in the Gulf of Mexico.
                               conclusion
    FDA, in close coordination with other Federal and State agencies, 
has been proactive in monitoring this disaster, planning for its 
impacts, and preparing our personnel and facilities to continue to help 
ensure a safe food supply. The protocols and approaches we have 
developed will protect the American people while minimizing the 
negative impact on Gulf seafood producers and exporters.
    Thank you for the opportunity to discuss FDA's activities with 
regard to seafood safety. I look forward to answering any questions you 
may have.

    The Chairman. Thank you, Mr. Taylor.
    Thank you all for your testimony. We'll start a round of 5-
minute questions.
    Dr. Kaplowitz, I understand you have mobile units in 
Louisiana to respond to the spill. How many are there? And what 
are they seeing and doing on a daily basis? And are you 
planning on sending any additional units?
    Dr. Kaplowitz. There's only one mobile unit in the Gulf 
area that we've sent there, and that's the one in Venice, LA. 
We've been in very close contact with all the States to 
determine whether they need further assistance, in terms of 
healthcare. We are assured that, at this point, the other 
States do not require any further assistance from the National 
Disaster Medical System. We are tracking, on an ongoing basis, 
the people seen in this clinic. It hasn't been a large number 
of people. And very few of the complaints, we feel, are 
directly related to the oil spill, but we want to assure that 
people have access to healthcare. We're very careful to work 
with healthcare providers in the area. We don't want them to 
feel as though they're being supplanted. So, it's a true 
partnership.
    The Chairman. So, you don't know if you're sending any more 
down there, or not?
    Dr. Kaplowitz. At the moment, nothing else is planned, but 
we certainly have teams that can assist further, working with 
the healthcare community.
    The Chairman. Dr. Howard, there was an interview on 
television last night, where a marine biologist said that the 
President should demand respirators on all responders 
immediately, that are working in this area. I don't know if 
she's right, or not. But, tell me what's happening, in terms of 
people using respirators. And how important is it that these 
workers use respirators--the workers that are cleaning up, 
either out at the site or that are cleaning up along the 
beaches?
    Dr. Howard. Yes, Senator, I saw Dr. Ott's interview last 
night, myself. And certainly, you know, there are areas where 
exposure is uncertain or the exposure has been, in the past, 
judged as excessive. When you do the oil burning out offshore, 
that's an area that we have concern about, and we've 
recommended that respiratory protection be appropriate for 
that. Obviously, if you're in a ship, doing the burning, and 
you're upwind all the time, but sometimes wind can change, so 
that's an area of concern.
    For folks that are doing booming and skimming, they may not 
be exposed to a lot of the volatiles, but they may be exposed 
to fresher crude, less-weathered crude. That may be an area 
where respiratory protection is recommended.
    For shoreline workers who are doing cleanup, that are 
picking up highly weathered crude, respiratory protection 
itself may not be indicated, but their dermal protection is 
extremely important, because they're handling oil on the beach, 
etc.
    So, respiratory protection has to be delineated based on 
the exposure scenario. So, we, at NIOSH, are developing 
recommendations, along with OSHA, for respiratory protection 
for workers and volunteers in all exposure scenarios.
    The Chairman. Mr. Taylor, about 2 weeks ago I saw an 
article in the paper--I don't have it with me right now, but, 
again, it was another marine biologist, or toxicologist--and 
she had been diving in the ocean around this area in the Gulf 
and finding that very small fish, tiny little fish had been 
ingesting some of this dispersant, which I guess is very toxic, 
but--it wasn't completely toxic to the small fish. The point 
she was making is that a lot of the small fish are being eaten 
by bigger fish, and then those fish are being eaten, up the 
food chain, by sharks and dolphins and other things. And she 
was pointing out that, as it did that it became even more toxic 
as it went up the food chain.
    Do you have any knowledge of this? And what steps is the 
FDA taking to look into the possibility that these small--
almost down to the phytoplankton size, where teeny little fish 
are eating this dispersant, and that's being moved on up the 
food chain to the kind of fish that we eat--what's the FDA 
doing to keep tabs on that?
    Mr. Taylor. We've looked very closely at the question of 
whether the dispersants could affect the safety of the seafood, 
of what people eat, and we're confident, based on what we know 
now, that we don't have a concern there. The issue here is 
whether the dispersants are actually absorbed into the flesh of 
the animal, or bioconcentrated, as the scientists say. There 
are some basic mechanisms of the way in which these water-
soluble compounds--which is what the dispersants are--are able, 
or not able, to pass the membranes, whether it's in the gills 
or in the intestine of the fish, which are lipid membranes. And 
so, because these are water-soluble compounds, there's a 
physiological barrier essence that the animal has created that 
protects the flesh of the food--what people eat--from being 
contaminated. This does not mean that these compounds are not 
potentially harmful to the fish themselves, and we understand 
there are issues there. But, as we focus on the safety of the 
food itself, we feel confident that these dispersants are not 
getting into the food in a way that would affect the safety of 
the food.
    The Chairman. You're very confident of that?
    Mr. Taylor. Yes, just on the science that we've got and 
some really good experience with this, we're confident of that. 
We know that NOAA, for example, is doing some further studies 
to verify this understanding about the inability of these 
compounds to bioconcentrate. We'll certainly work with NOAA in 
following that. But, there's a large body of experience with 
the properties of these compounds and in past oil spill 
situations that give us confidence on this point.
    The Chairman. How about people eating shrimp? I'm over my 
time. One last question. How about people eating shrimp? How 
confident should we be that the shrimp we have on our salads, 
in our soups, in our meals that we buy--how safe is that?
    Mr. Taylor. Because of the aggressive action by NOAA to 
close waters, we're confident that if it's on the market today, 
that shrimp and other seafood taken from the Gulf are safe. 
Those are very aggressive preventive measures. The best thing 
we can do, is to get control of a situation where there's a 
potential hazard, and really prohibit the taking of fish from 
those areas. Those waters are being patrolled by the Coast 
Guard and by NOAA, and now there's testing going on to verify, 
in fact, that the seafood is safe. But, that basic preventive 
measure is something we have, going forward, on the food safety 
aspect of this, that perhaps we don't have, certainly, in the 
occupational context of exposure to the oil or the dispersants.
    The Chairman. Thank you very much, Mr. Taylor.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    I want to thank everybody on the panel. I've got more 
questions than can possibly be asked in even two or three 
rounds. And so, I hope you'll be willing to answer some in 
writing, particularly some of the more specific ones.
    But, I'll start with Dr. Howard. How many people are 
currently on the CDC registry because of the oil spill?
    Dr. Howard. Senator, we've rostered about--nearly 13,000, 
as of today. Now, you may ask, What's the denominator? We're 
somewhat unclear about what the denominator is. We think it's 
somewhere between 15,000 and 20,000. But, not all workers that 
have been trained are necessarily badged and working. So, we 
feel that, based on where we started, the 13,000 that we've 
rostered is a very good start, as of now.
    We're preparing a Web-based rostering, and we're also 
rostering people at the training centers, before they even 
complete their training and go out into the field.
    So, we're confident that we can capture everyone who is 
working.
    Senator Enzi. In these efforts that you're doing, what are 
you doing to ensure that you're able to compare the health of 
the general public before and after the spill, since you 
weren't really stationed there before the spill? What kind of 
baselines are you gathering?
    Dr. Howard. That's a really excellent question, and it goes 
to the issue of CDC's health surveillance of the populations in 
the Gulf States.
    One of the things that we're doing is drawing a number of 
different sources of data. One source of data are Poison 
Control Centers. They're all over the United States. But, we're 
looking at 60 Poison Control Centers that are located in Gulf 
States, trying to figure out, What kind of calls are they 
getting? Are people alleging they've been exposed? Are they 
just asking for information, for instance? To date, looking at 
those calls, as of now, today, we have about 400 of those 
calls. The majority of those calls are coming from workers, not 
actually from residents.
    So, that's one good source of information. We've started 
this fairly early in the process, and hopefully now we can 
build on it every week and we can use some of the earlier data 
as a baseline as we go through, especially as the oil migrates 
around the Gulf.
    The second big area is the BioSense Program, which is 
essentially looking at surveillance of a whole bunch of 
healthcare facilities throughout the United States. We used it 
in H1N1, for instance. Now we're using 86 of those healthcare 
centers which are located in the Gulf area. People coming in 
the door, what are they complaining about? Are they complaining 
about a rash that they may have gotten from contact with oil, 
etc?
    And then, the third thing, we're looking at the State 
health department data, because each of the States in that 
area--Louisiana, Mississippi, Alabama, Florida--they all 
collect their own data, they all have their own surveillance 
system. We're putting it in one portal on our oil spill site, 
on the CDC site, and we're looking at what their data shows. 
It's very similar. When we look at Louisiana's data, for 
instance, we see the predominant number of folks that they're 
surveilling are primarily workers, not residents. The general 
symptoms that are being reported by people when they come into 
these systems is the kind of experience that we've had 
throughout this from the very beginning: headache, dizziness, a 
little nausea, things smell bad. Those are the common kinds of 
complaints that we're seeing, and also both on the telephone 
and Poison Control Centers and in the healthcare facilities.
    Senator Enzi. Thank you. Sounds very efficient, and I 
appreciate all the effort that that requires.
    Dr. Kaplowitz, as the Assistant Secretary for Preparedness 
and Response, have you seen a significant increase in the 
number of individuals presenting at the hospitals and the 
community health centers in the area, besides the special 
clinic?
    Dr. Kaplowitz. Again, that would build on what Dr. Howard's 
talking about. We work together to monitor the surveillance, 
and much of the surveillance is happening at the State level, 
also the BioSense and the Poison Control Centers. So, we don't 
actually have a separate surveillance system. We monitor what's 
happening in the clinic in Venice, and we have people who are 
in the area who are trying to stay in touch with providers in 
the area. So, we're all working together to make sure that we 
have a similar picture, in terms of surveillance in the area.
    Senator Enzi. Could you cover, again, how severe the health 
conditions are of the individuals that have come to the Venice 
clinic?
    Dr. Kaplowitz. OK. In general, they've been mild. Most of 
the reports have been respiratory illness. So, 38.4 percent, to 
be exact, have been treated for acute respiratory conditions. I 
can't tell you specifically whether they're triggered by oil, 
but that's what's reported. We have 27 patient encounters for 
dermatologic, eye, or gastrointestinal problems, which, again, 
may or may not be directly related to the oil.
    I think the best data, in terms of people working most 
closely with the oil, is going to be from the workers. But, we 
certainly are very concerned about the general population, 
which is why we want to continue this long-term surveillance 
and set up systems that we can monitor people over a prolonged 
period of time.
    Senator Enzi. I know that my time is expired, but I've got 
just a little, short--I hope, short--followup on that. Are you 
gathering baselines from those that you're treating, beyond 
what's just happening to them there, so that it can be 
aggregated later to see what other implications there are?
    Dr. Kaplowitz. We're not set up to do that right now, but 
that's certainly something that we're working to set up, in 
terms of a long-term surveillance system. And that could 
complement what Dr. Collins has been talking about, in terms of 
funding research. It's going to be really important to set up 
the studies correctly, and that's one advantage of the 
Institute of Medicine meeting, as well. We're going to pull 
together top scientists to really advise us on where we should 
be going, what we should be looking for.
    Also, I was reminded, we're seeing a lot of heat-related 
illness. Not too surprising. And that's a concern, too, when 
you talk about respirators, because that could actually 
exacerbate heat illness. So, a lot of what we're seeing is 
heat-related.
    Senator Enzi. Thank you very much.
    The Chairman. I thank you, Senator Enzi.
    Senator Murray.

                      Statement of Senator Murray

    Senator Murray. Well, Mr. Chairman, thank you so much for 
having this hearing. This obviously is a very important 
hearing.
    My experience on this goes back to the Exxon Valdez spill 
that obviously the Northwest saw acutely, more than a couple of 
decades ago. Many people from my State have fishery boats, and 
many volunteered to go up there. I remember it all very well. I 
recall numerous reports on the negative health effects of the 
responders there, and that there were widespread concerns, at 
the time, that reports and claims were largely ignored. And I 
want to make absolutely sure we do not repeat that, and we take 
all of the claims and concerns seriously, both now and in the 
future.
    So, I wanted to ask all of you, What assurances can all of 
you make that our government and BP will respond swiftly and 
thoroughly to any of these reports? And are there systems set 
up to monitor and report on the short- and long-term health 
effects of the workers who are responding to this disaster?
    Dr. Howard. Well, I'm not going to respond for BP, but 
certainly, on the part of Department of Health and Human 
Services, I think----
    Senator Murray. OK.
    Dr. Howard [continuing]. Your concerns are exactly our 
concerns.
    I was at the Exxon Valdez in Alaska, also, myself. And I 
think one of the deficiencies there is that we were able to 
ascertain some acute irritant effects, but we really didn't 
follow through with monitoring that population for chronic 
effects. And that is something I think that we all have spoken 
to the need for that.
    But, to start that, to actually be able to identify chronic 
effects, you have to start very early. You have to get a hold 
of all the people who are involved--hence, our rostering 
activity--and then you have to make sure you know what they're 
doing in their particular tasks.
    Senator Murray. So, do you have a system to implement, 
right now, that is keeping track of all those workers----
    Dr. Howard. Yes.
    Senator Murray [continuing]. What they're doing? Any 
complaints?
    Dr. Howard. The rostering system we have, we ask, ``What 
are you assigned to do?'' So, that's--as you come out of the 
Training Center, you're either assigned for shoreline cleanup 
or you're assigned for other activity. So, we're going to, 
then, monitor that as we go forward. We have to have a 
baseline. We have to find everybody.
    Senator Murray. Right.
    Dr. Howard. We have to have all that demographic 
information.
    And then, in terms of the surveillances, as I've indicated, 
in the Unified Command, there are health and safety modules, so 
we're looking at the injuries that are being reported--
punctures, lacerations, motor vehicle accidents. All sorts of 
things like that are happening, because there are a lot of 
people, in a big area, doing a lot of activity.
    And then, we're also looking at, as Dr. Kaplowitz pointed 
out, this most significant problem we're having, with heat 
stress. You know, the heat index, on many days in the area of 
cleanup, is quite high, and that is probably our most serious 
issue, where we can say most workers that we have seen problems 
with are reporting heat stress issues. Then we have some 
workers who report hydrocarbon odors. And then we had an 
episode, a couple of weeks ago, where we had nine workers 
reporting significant hydrocarbon issues. Seven of them went to 
the hospital.
    Senator Murray. Right, and are you taking absolutely 
everything seriously and recording everything?
    Dr. Howard. Absolutely every report--we are following up. 
Exactly. And we are looking at all the data that is being 
recorded by BP and its contractors, as well as governmental 
agencies, about any incident that's reported in any of their 
workers--we're analyzing all that data, trying to figure out, 
Are there patterns? Are there things that we could recommend to 
prevent those things from happening?
    Senator Murray. OK. So, doing better than when you remember 
the Exxon Valdez?
    Dr. Howard. Oh, much better. Much better in that regard. I 
think we are at the point of being remarkably better organized 
in health and safety than we were in the Exxon Valdez. And I 
think the meeting of the IOM, next week in Louisiana, we will 
be able to get what we never got in the Exxon Valdez--
concurrent scientific input. We got it later on. There were 
commissions that were established, as you know, but we did not 
ever get concurrent----
    Senator Murray. Right. OK, good.
    Anybody want to add anything to that or does that cover it?
    You've mentioned, Dr. Kaplowitz, several times, this heat 
problem, heat stroke, and the number of people who are being 
impacted--I understand the temperature is, like, 110 degrees 
now, so not surprising. So, it's necessary to stop people from 
working when that happens. But, I also realize that's going to 
slow the cleanup. And I wondered, from your perspective, or 
anybody's perspective, Do we have enough workers down there? Is 
BP hiring enough to meet all the needs of this, knowing that we 
are going to have some people with health effects?
    Dr. Kaplowitz. I'm going to have to defer on that one. I 
can assure you that the heat's being taken very seriously. 
There's a lot of attention being paid to hydration and allowing 
people significant rest time. So, some may be working for 20 to 
40 minutes with 20 to 40 minutes off. And that's a decision 
made by NIOSH, working with OSHA.
    Senator Murray. But, is that being taken into account, that 
we'll need additional workers because people do have to take 
time off, and those kind of things?
    Dr. Howard. Yes. I think that point is extremely well 
taken. The exact manpower demands for this activity, I've not 
seen, but I certainly think they're greater than what we have 
now.
    Senator Murray. Yes. I just want to make sure we're not 
pressuring people to stay on the job when they should be 
taking----
    Dr. Howard. Exactly.
    Senator Murray [continuing]. Time out, that we have enough 
people to cover everybody so it's not----
    Dr. Howard. No. We're actually getting some complaints from 
folks along the coast, that the workers are working 15 minutes 
and resting 45 minutes. But, unfortunately, given the heat 
indices, we have to do that.
    The other thing I wanted to add is, some consideration is 
being talked about now, at the Unified Command, for nighttime 
cleanup activities, which would help ameliorate some of the 
radiant heat load that we have during the daytime on workers.
    Senator Murray. OK.
    Dr. Miller, I wanted to ask you, Is NIEHS currently 
studying the risk of oil dispersants on public health?
    Dr. Miller. Currently we've been evaluating what the 
literature tells us about the oil dispersants. And the 
information would suggest our greatest worry is really related 
to the acute exposure, and especially in high concentration of 
this, for the workers utilizing it. Certainly, there appears to 
be some concern, also, with respect to how it may affect the 
oil and, in fact, does it increase its absorbance into humans 
that may be exposed to it, and affect it in that way? We don't 
have as great a concern for the long-term health effects with 
it, fortunately. And the one dispersant that they were using, 
which contained 2-butoxy ethanol, has--they have stopped using 
that particular one. So, that helps ameliorate some of our 
concerns with respect to it.
    Now, as we move forward, we'd like to do additional 
research and toxicology testing and get better exposure data 
with respect to the dispersants and the oil, too.
    Senator Murray. And you have the resources you need to do 
that?
    Dr. Howard. That's what--some of the research moneys that 
just came through--Dr. Collins will be headed to help us with 
those types of questions, to looking at the human health 
effect.
    So, that's very important to us, as well as the efforts 
right now to try to get researchers involved, through our time-
sensitive programs, in performing some research on some of 
these important questions, absolutely.
    Senator Murray. OK. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murray.
    Senator Merkley.

                      Statement of Senator Merkley

    Senator Merkley. Thank you very much, Mr. Chair.
    Thank you all for your testimony and your efforts to 
respond to this disaster.
    I wanted to start, Dr. Kaplowitz, with a question for you. 
I went down to the Gulf on Friday, and I was struck by the 
amount of oil that's touched the shoreline, even though it's 
just a tiny bit of the oil slick. And it was pointed out to us 
that if there is a significant storm in the upcoming weeks--and 
we are in the hurricane season now--that instead of a small 
fraction of the oil, large amounts of that oil, perhaps the 
entire slick, will be driven up into the shores, and we'd have, 
in terms of the shoreline impact, a disaster a couple of orders 
of magnitude larger than the one we already have. And that's 
going to be a lot more cleanup, a lot more workers. Is that a 
fair picture of the situation? And are we preparing for the 
possibility of a storm driving the slick north and creating a 
much larger contamination?
    Dr. Kaplowitz. Well, I can assure you this is an integral 
part of planning for hurricane season this year. Each year, we 
get geared up for hurricane season. And there's been a lot of 
discussion about what the impact of a storm in the Gulf could 
have, including the fact that a storm surge could push the oil 
inland. The fact is, we really don't know what's going to 
happen, but we are very concerned that the oil can be pushed 
further inland through the storm surge.
    Again, this is unprecedented, but clearly we have to be 
concerned that the oil will be pushed further inland.
    Senator Merkley. In addition to the oil being pushed 
inland, there has been some discussion of the fact that a major 
storm could pick up some of the oil and re-dump it inland. Is 
that a real possibility? And does that have health issues 
that--concerns that we need to be prepared for?
    Dr. Kaplowitz. I can't answer that question. Again, most of 
the discussions I've been part of talk about the storm surge, 
so I don't know the answer to that.
    Senator Merkley. OK. Let me go ahead and ask a question 
about the underwater plumes. And essentially my understanding 
is--Mr. Taylor, this may be in your area, with FDA--my 
understanding is, you are preventing all fishing in areas where 
the underwater plume exists, so that people can be assured 
that--and I just want to clarify this, for the record--are you 
assuring folks that the food that they're getting from the Gulf 
is from outside the plume, or are you assuring them that the 
food is safe, even though it might be from inside the plume?
    Mr. Taylor. The purpose of the NOAA closures--and it is 
NOAA that actually has the authority to close the waters--is to 
prohibit taking of fish from areas that are contaminated with 
oil, whether on the surface or in the water column. So, yes, 
the reason we're confident about the safety of seafood is that 
those closures have been aggressive, they've been anticipating 
the movement of the spill. They have a 5-mile buffer zone 
around the oil itself which is included in the closure. So, 
again, that's the fundamental preventive measure that we've 
been able to take, and we think it is very effective.
    Senator Merkley. So, tracking underwater plumes are a 
little harder than surface plumes. Do we feel like we have 
enough testing, enough resources to really know where those 
underwater plumes are, at different levels in the water column?
    Mr. Taylor. Yes, I'll have to defer to NOAA on the 
technology, but this is their business, and they have the means 
to do this.
    Senator Merkley. OK. I want to turn to FDA's seafood--and I 
think you refer to it as the HACCP program. One of the things 
that I've heard is that folks are going into restaurants and 
ordering things, like shrimp, and saying, ``Is any of this 
shrimp coming from the Gulf?'' How do you recommend that 
restauranteurs--if, in fact, they're ordering from the Gulf--
respond to customers so there's a consistent message to the 
American consumer, ``Yes, we do have shrimp from the Gulf, but 
it is all shrimp that is approved and tracked as safe by such-
and-such?''
    Mr. Taylor. Right. Well, again, the power of the HACCP, 
this preventive control system that seafood processors are 
required to have, is that they have to have a system that 
verifies that they are sourcing their product, whether it's 
shrimp or other seafood from the Gulf, from waters that are not 
subject to the closure. And they will have to document that. 
And so, a restauranteur should be certainly seeking that sort 
of verification from--if they're concerned about this--from the 
processor.
    Senator Merkley. I think it's their customers that are very 
concerned. Is there a standard way of presenting that--I mean, 
this is partly a public education----
    Mr. Taylor. Right.
    Senator Merkley [continuing]. Issue, and I'm just wondering 
if there's--helping giving people a way to approach this.
    Mr. Taylor. Again, the first thing we're doing is 
communicating--the basis for our confidence that these foods 
are safe. There isn't in place, if you're asking, a mechanism 
for that sort of verification documentation to track all the 
way through to the restaurant. But, certainly the restaurant 
could do whatever they feel the customer demands.
    Senator Merkley. OK. No standard guidance, that's what I 
was----
    Mr. Taylor. Yes, sir, right.
    Senator Merkley [continuing]. Looking for.
    Well, I think that my time's expired now, so I'll stop 
there.
    Thank you.
    The Chairman. Thank you, Senator Merkley.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Mr. Chairman.
    I want to thank the panel for being here, and for your 
work.
    Dr. Howard, I wanted to start with you about a question 
that you made reference to in your testimony under the heading 
of ``Potential Exposure Pathways.'' I'm just reading from the 
third sentence. You said, ``Children tend to be more sensitive 
than adults to oil and other forms of pollution. What might be 
annoying to an adult could be a real problem for a child, 
particularly if the child is an infant or toddler or has 
preexisting conditions.''
    I have three basic questions; all of them overlap. First, 
what has our government seen, or anyone else on the scene, seen 
as it relates to the scope of the problem as it might relate to 
children, their exposure and the problems they're having with 
that? Second, what are we doing about it? And third, is there a 
plan in place to track adverse health effects as it relates to 
children?
    Dr. Howard. Yes, Senator. You know, the general rule is, 
children have higher respiratory rates and higher metabolic 
rates than adults, and they tend to, then, take in more of a 
toxin if it's in the atmosphere. So, that's the general rule 
that that statement's based on.
    They also have--especially very young children, infants--
relatively undeveloped immune systems so that they are less 
able to fight off infections that an adult would. So, that's 
the general susceptibility that children have.
    Fortunately, we haven't seen, in our health surveillance 
system that I've described--thus far, we haven't seen any 
complaints--issues of exposure coming from parents of young 
children, for instance. We haven't seen that in our system that 
we have.
    Senator Casey. You mean parents reporting.
    Dr. Howard. Parents reporting, calling in to a Poison 
Control Center, saying, ``My child was exposed,'' etc. We 
haven't seen that in our system yet. We're highly cognizant of 
looking for that, though, but we haven't seen it yet. So, that 
is some relatively good news.
    Senator Casey. In the absence of a lot of complaints, I can 
understand why you may not be at this point yet, assuming there 
will be health effects as it relates to children. Let me ask it 
this way, Is there an existing strategy that you could apply to 
this to treat children, or would you have to come up with an 
additional strategy as it relates both to the treatment of a 
child, but also that relates to monitoring what happens to 
workers? Let me just see if I can get the right title--
``Collecting and Evaluating Occupational Exposure Data.'' I 
mean, as you're tracking problems that workers have, in 
particular--and I know the urgency of that--is there something 
you can or should do that would be focused just on children?
    Dr. Howard. Well, certainly pediatricians know very well 
how to treat childhood exposures. Children often get into all 
sorts of trouble. In fact, most Poison Control Centers, a lot 
of their calls are related to children who have gotten into 
household products, etc, when they shouldn't have. A lot of 
Poison Control Centers are very well situated to be able to 
offer advice, both to parents, as well as physicians who see a 
child in an emergency room that might have----
    What we are anticipating, of course, is children on the 
beach may be coming into contact with some weathered crude on 
the beach, as has been seen on the TV.
    So, that kind of a monitoring system that we've set up 
would include that kind of information. As I say, as yet, we 
haven't seen it, but we're certainly looking for it.
    Senator Casey. Thank you very much.
    The Chairman. Thank you, Senator Casey.
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    And thanks, to all the witnesses, for your testimony.
    I actually would like to start, Dr. Howard, where Senator 
Casey left off, because, among other things in your testimony, 
you talked about the health risks from this spill, including 
the vulnerability, of children and people with asthma, to air 
pollution from burning oil. You also said--and I heard you say 
that we haven't seen it yet. But, you said, in the testimony, 
that, ``Much of the data we have regarding health risks of oil 
spills likely understates the risks for a large spill.'' I 
wonder--assuming that we begin to see this sort of exposure--
whether you could tell us a little bit about what the full 
chronic health impacts of this might look like over time.
    Dr. Howard. Well, Senator, I wish I could, but I think, as 
Dr. Miller pointed out, when you look at the world's 
literature, you have, maybe, less than 40 articles that you 
could possibly turn to, not all of them very high quality; and, 
in fact, some of them involve a tanker running aground and a 
small spill, maybe 10,000, 15,000 barrels, let's say, of oil. 
We don't have a world's literature here that's able to tell us 
what happens when there's this much oil around populated sites.
    Now, we know from those studies, though, that there are 
acute irritant effects on the skin from crude oil, as well as 
any other chemicals that are mixed with it, because, 
essentially, the dispersant is yet another type of hydrocarbon, 
so it's all hydrocarbon sensitivity, irritation, dermatitis.
    And then, you're going to get some neurological complaints 
from the volatiles that may be off-gassing from the 
hydrocarbon, or some people are just very sensitive--even 
though there's no measurable volatiles, some people are just 
very sensitive to hydrocarbon odors. Some people go to the gas 
station and they get very sensitive to--when the gas fumes are 
there. So, those people can develop a headache, they can get 
dizzy, they can be a little nauseous. They can get so nauseous 
that they could vomit. So that there are those sort of 
constellation of symptoms that are very common. And you look in 
those studies, and those studies that have looked at acute 
effects--and most of the studies, that's all they've looked 
at--you'll see those common symptoms. Some of them will say 
people also experience respiratory irritation, down in their 
throat and their lungs; they cough. And just in a very few 
studies have they actually measured the lung function. In a 
couple of those studies, they've found the lung function has 
come back within a very short period of time.
    So, mostly they're irritant effects, they're self-
resolving, and they primarily involve the respiratory tract and 
the gastrointestinal tract.
    Senator Bennet. Dr. Kaplowitz, did you have something?
    Dr. Kaplowitz. I----
    Senator Bennet. Thank you.
    Dr. Kaplowitz. [continuing]. Just wanted to add that this 
is really what makes the Institute of Medicine workshop so 
important. The Institute of Medicine is pulling together many 
experts in all those areas--respiratory health, neurologic 
problems, as well as psychologic issues--to get the best 
information, as well as to help us determine how to do the 
monitoring, and how to do it right, from this point forward, 
including the issues with children. We're very concerned, but 
we don't know what the long-term impacts could be.
    Senator Bennet. Dr. Miller, just on the point of the 
dispersants we were talking about--and the Chairman talked 
about it, too--did we learn anything from the Valdez episode, 
about the use of the dispersant that was used here, the COREXIT 
9527? Or was that something different? Or did we not study it?
    Dr. Miller. Yes, I don't think, to my knowledge, that we 
utilized the dispersants in the Valdez, but I'm not as familiar 
with--if that was the case. But, I don't believe it was.
    For this situation, the dispersants, at least at this level 
of usage, is unique. And we can anticipate that we need to 
evaluate this very closely to just make sure that we are not 
seeing health effects related to the dispersants, in addition, 
as Dr. Howard said, to the oil and the chemical compounds that 
are there and present in the oil.
    Again, as Dr. Howard mentioned, too, the acute effects--and 
what makes us wary in some of the studies that, again, are very 
limited, suggest that there may be some longer-term sequelae, 
in terms of respiratory problems or genotoxic effects and 
others. So, the clear need for this research, in the IOM 
meeting, to really start moving forward on critical research 
elements.
    Senator Bennet. Let me just--may I ask one more question, 
Mr. Chairman? Thank you.
    Mr. Taylor, you testified that roughly 32 percent of the 
Gulf's Exclusive Economic Zone is, today, closed to fishing. 
How much worse do you think things are going to get, in terms 
of this moratoria?
    Dr. Miller. Well, the closures will follow the growth of 
the spill. And I think we're all focused on when we can stop 
the spill from growing. I'm certainly not in a position to 
predict that, but NOAA is following the spill and its movement 
and, you know, it's expanding the closure, as needed, to 
encompass it, as it grows.
    Senator Bennet. We know it's unlikely to be stopped in the 
coming weeks--can you predict, at all, whether that 32 percent 
is going to become 40 percent or 45 percent?
    Dr. Miller. Yes, NOAA may well--they actually do a lot of 
projecting, based on the data they collect, which they collect 
on a daily basis, and we can get back to you with any 
projections that NOAA has for the growth in the future. But, 
they follow that extremely closely.
    Senator Bennet. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Bennet.
    Senator Hagan.

                       Statement of Senator Hagan

    Senator Hagan. Thank you, Mr. Chairman. And thank you for 
holding this hearing.
    I appreciate the testimony of the witnesses today. And, in 
particular, we all know that this is an environmental disaster 
of just huge proportions, and the areas that it's affecting 
now, and the areas that we're all concerned about it affecting, 
is something that's, I think, on the entire country's minds. I 
think everybody's praying for all of our workers, and 
especially that we can come to an as-soon-as-possible 
resolution to this disaster.
    I know we're talking about the health impacts right now, 
but I was just wondering, What long-term resources do we think 
are going to be available for people who suffer health problems 
related to this disaster? What are your cost estimates to deal 
with relevant health issues? And who's going to actually pay 
for it?
    Anybody want to take a stab at that initial question?
    Dr. Howard. Well, since no one will step up to the plate.
    I think there's--uncertainty is probably the word that we 
have for a lot of issues that you brought up, Senator. We're 
quite pleased that NIH has stepped up with some funding that's 
independent--it's government funding--to look at acute and 
chronic health effects. As we've said all this afternoon, we 
just really do not know a lot of things, here. And the only way 
to find out is to be able to study. Certainly, that's something 
I think we all support at HHS. And as Dr. Kaplowitz had pointed 
out, Secretary Sebelius has, very early on, said, ``We need to 
call in the experts, and we need to do this right, from the 
beginning.''
    So, I think, in that sense, we're at that stage of, 
certainly, supporting the sentiments that you just said, and we 
need to do it quickly, and we need to do it with confidence so 
people will have confidence that we're looking at this 
situation and we're generating the science that we need to 
answer everybody's question.
    Senator Hagan. Appreciate that.
    Dr. Kaplowitz, in your testimony you mentioned the 
Institute of Medicine workshop that's going to take place, I 
believe next week, to better inform the public. Can you tell 
us, What are some of the things that the officials are going to 
convey to the public during this workshop?
    Dr. Kaplowitz. Actually, it is going to be open to the 
public, but, as much as anything, the workshop is also to 
inform us, in the Government as well as the scientific 
community, about where we go next. This is, first and foremost, 
a scientific workshop, and not a workshop where mainly we're 
going to be presenting information. We want to hear from the 
experts, in terms of the best science. What do we know? What 
don't we know? And how should we plan to move forward with the 
kind of research studies that we've talked about? What's the 
best way to set up surveillance?
    Also, the behavioral health issues have to be looked at, 
because we know we're going to see some sort of impact; we 
don't know exactly how much.
    And then, one thing that I didn't mention is the 
communications issue, because there are many issues with risk 
communication to the public. This is a culturally diverse 
community, in the Gulf, not only speaking different languages, 
but different cultures, and we want to be able to effectively 
communicate what we do know and what we would like to do.
    Senator Hagan. Who is doing that public education in the 
communities that are currently affected? Who's actually 
handling that?
    Dr. Kaplowitz. Much of the time, it's handled by 
localities, by States. We're providing a great deal of 
information, and that's especially, the CDC. I'll defer to Dr. 
Howard. But, we're trying to pull together the best 
information. However, we realize that just having scientific 
information isn't what's going to reassure people.
    Senator Hagan. Are you monitoring what education's coming 
out? And I bring that up because, you watch TV, and the TV 
reporters are handling it with their hands unprotected, they're 
swimming in it. Maybe there needs to be some more education 
going on.
    Dr. Kaplowitz. Yes. And we recognize that. So, again, we're 
communicating with the press, but also, with the public being 
impacted, we're very concerned that we get the appropriate 
messages across.
    So, it's mainly a scientific meeting. We know there'll be a 
lot of attention paid.
    Senator Hagan. Thank you.
    Last week, I joined with a number of my Senate colleagues 
in calling on Secretary Napolitano and Secretary Locke to 
coordinate with State emergency preparedness agencies and 
develop a plan, should oil or the dispersants come, get into 
that Loop Current and come up around Florida into the Atlantic 
Coast. In North Carolina, State and local agencies, already 
have disaster preparedness response plans in the event of an 
oil spill. But, what coordination of plans are you working on, 
or do you have in place, should the oil move up the Atlantic 
Coast?
    Dr. Kaplowitz. Well, I'll start with that. What's been very 
important, as I mentioned, in the Gulf Coast, is to coordinate 
activities with the State health officials, and the State 
health officials, also working with the healthcare systems. And 
that would be expanded to include whatever States are impacted. 
So, we would expand the communication with State health 
officials and make sure that we're really coordinating our 
efforts and, again, that we're working with them to monitor the 
impact on the population. So, we would expand our efforts, in 
terms of the States.
    Also, I was just reminded, we have regional emergency 
coordinators in each of the public health regions. And I 
shouldn't have forgotten that, because Region IV and Region VI, 
the regional emergency coordinators have done a fantastic job. 
They've been communicating with the communities. They've been 
working with the command centers. And they are really our eyes 
and ears on the ground.
    So, this would expand, if necessary, to other regions. I 
believe Region IV goes to the North Carolina border, so we 
would be expanding our efforts in the regions.
    Senator Hagan. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hagan.
    Dr. Kaplowitz, and all the rest, BP says that a lightning 
strike this morning, and a fire, has halted the containment of 
oil. Just found that out--9:30 a.m. They say that the capture 
operation is expected to resume, later today.
    Unforeseen things happen. Don't fool with Mother Nature; 
you never know what turn it's going to take. How confident are 
we--and this question was sort of asked earlier--how confident 
are we that you have in place something to deal with worst-case 
scenarios? God forbid, but what if another hurricane sweeps up 
through the Gulf. Doesn't even have to be a Katrina-type, but 
just another big hurricane comes and pushes that oil spill up 
into Alabama and Louisiana, Texas, the Florida Panhandle, with 
huge surges, water going inland for some distance. Can I be 
confident that we have plans for a worst-case scenario?
    Dr. Kaplowitz.
    Dr. Kaplowitz. I know there have been many discussions 
about the hurricane season. I'm reminded frequently by FEMA 
that we still have to worry about all the things we worry about 
with hurricanes, that that's what's going to have the biggest 
immediate impact on people. And, quite frankly, once again, we 
don't know what the impact's going to be, how big the storm 
surge is. Certainly, we'll intensify our surveillance efforts, 
our outreach to the community, looking at the health effects. I 
can't answer, in terms of cleanup. But, all possibilities are 
being looked at. Still, we're really concerned about the direct 
effect of the hurricane itself, and we don't want people to 
lose track of that.
    The Chairman. Well, I understand that, but, again, if this 
pushes oil inland, there's going to be massive cleanup. And it 
won't be just the damage from the hurricane, it'll be the oiled 
residues all over that will have to be cleaned up. And that has 
certain toxic effects that you might not get from just cleaning 
up wood or debris, bridges, things like that, that might go 
down in a hurricane. You have other toxic effects.
    Are we prepared for that?
    Dr. Howard. Well, you know, I can say that, the exposure 
determines the level of protection. So, if you're cleaning up 
the shoreline or you're cleaning up an area that has been 
affected by a storm surge, it's protecting the individuals who 
are doing the cleanup with the proper protective clothing, 
hand--gloves, footwear, etc. So, from a safety and health 
perspective, for cleanup workers, we look where they're at--for 
instance, if they're at the source, they're on a vessel that's 
doing burning, they're at the shore, if they're participating 
in cleaning up wildlife--whatever they're doing, we look at how 
best to protect them in that situation. So, we have 
contingencies for looking at any exposure scenario, from the 
health and safety perspective, of cleanup workers. If that 
helps you.
    The Chairman. OK. Let me try it another way. As we prepare 
for the hurricane season, you know, we have preparedness plans 
in place for hurricanes. I'm not certain that incorporated into 
those plans are plans for cleaning up toxic oil spills. I doubt 
that they're in there.
    Dr. Howard. Right. And I would just say that having been in 
the area of the--Army Corps of Engineers, for instance, builds 
berms to protect bays that are near the shore, for instance. 
I've seen those berms being built. The Department of Homeland 
Security, as the incident commander for this activity, I'm sure 
would probably have those--thinking about those worst-case 
scenarios--the Unified Command itself. I'm not sure, we in 
HHS--I think we know what we would do if we have to look at yet 
another exposure scenario.
    The Chairman. OK. I understand, yes.
    Dr. Miller, do we know the chemical composition of the 
dispersants that have been used?
    Dr. Miller. EPA has provided the formulations on their Web 
site, just recently, of the two dispersants that have been 
used.
    The Chairman. Because, earlier on, I had read that the 
dispersants used were a patented or a----
    Dr. Miller. Yes, that was the case. And they just recently 
provided that to the----
    The Chairman. The information----
    Dr. Miller. Yes, that's true.
    The Chairman. Those dispersants don't destroy the oil, they 
just break it up into smaller pieces.
    Dr. Miller. That's my understanding. That's correct.
    The Chairman. That's my understanding, too. It's those 
smaller pieces that are ingested, then, by fish. And that gets 
back to you, Mr. Taylor, again. I talked, earlier, about the 
confidence level. You've indicated that we should have a very 
high confidence level about the fish that we eat. As you say, 
you have cordoned off certain areas in the Gulf for nonfishing. 
Other areas are fine. Again, I'm thinking--I'm looking ahead.
    Mr. Taylor. Right.
    The Chairman. As stated, I think, by Senator Hagan, there 
is the possibility--I try to keep up on this as much as I can--
that this oil will get involved in the streams, and the 
currents could go around, could come up the East Coast of the 
United States, go around the coast of Florida. Some of it will 
come ashore, but a lot of it will be dispersed in those little 
tiny things that'll be eaten by other fish, maybe not just in a 
closed area. Fish don't just swim within certain boundaries 
that you draw on top of the water. They can go in and out of 
those boundaries.
    So, again, I want to explore with you that--what kind of 
research and investigation are you doing as to whether or not--
even if fish eat this stuff, whether or not it's harmful to 
humans, or not; whether it goes--as you mentioned earlier, does 
it go into the flesh and the meat of the fish itself?
    Mr. Taylor. Right.
    The Chairman. Again, can you explore that with me? I mean, 
has any testing been done? We know the chemical composition, 
now. Has any testing been done on fish that eat this to see 
whether or not it goes into the meat--the flesh of the fish, of 
the shrimp, or the crustacean or whatever it might be?
    Mr. Taylor. Yes. There has been some limited testing in the 
past. The major root of concern is the dispersants in the 
water, you know, whether--and with water coming in through the 
gills and, to some extent through the mouth of the fish. So, 
there has been some testing of that. NOAA is doing some further 
testing. And so, that is work that we're following closely and 
we'll----
    The Chairman. But, it seems to me that would be testing----
    Mr. Taylor [continuing]. You know, pay attention to.
    The Chairman [continuing]. That ought to be done right now.
    Mr. Taylor. Yes.
    The Chairman. I mean, we know that oil is going to be 
around for a long time.
    Mr. Taylor. Right.
    The Chairman. It's not just sinking to the bottom; it's 
going to be dispersed, it's going to float around. Some of it 
will come ashore, a lot of it will just sort of get out there 
and float around for years to come.
    Mr. Taylor. Right.
    The Chairman. It would seem to me that we ought to be doing 
research on this dispersant that was used, or even on the oil 
itself as to whether or not fish that ingest this, and going up 
the food chain of the fish, where there are little fish that 
eat it, they're eaten by bigger fish that becomes more toxic, 
obviously, as the bigger fish ingests more of it--whether or 
not the fish is going to be safe to eat.
    I mean, you could get fish, put them in tanks, and put that 
stuff in there, and let them swim around in it a while, and you 
can test it out, can't you?
    Mr. Taylor. Yes. As I understand it, NOAA is doing such 
work. We'll get back to you with the full details of what 
they're doing and how it relates to our continuing assessment 
of this.
    But, I think we do have a solid foundation, based upon a 
lot of experience and a lot of knowledge----
    The Chairman. Well, this would be very important to know. 
No. 1, are we doing some testing and research, right now?
    Mr. Taylor. OK.
    The Chairman. We know what the dispersants are, we know 
what the oil is, we know it's going to be around for a long 
time. Put it in tanks with the kind of fish that we eat--
crustaceans or shrimps or anything else--to see whether or not 
it does get into the flesh.
    And, second, based on that, how are we going to protect the 
public in the future?
    But, it seems to me that, first, we have to do the 
scientific research to get a valid basis on whether or not this 
is harmful, or not.
    Mr. Taylor. And we will follow up and report to you on that 
research.
    Let me--in terms of anticipating worst-case scenarios and 
what--the real concern, I think, we would have about the safety 
of seafood is, again, if it spreads, being out in front of that 
with closures, which, again, I just have to emphasize, is such 
a fundamental preventive measure.
    Finfish tend to swim away from oil columns in the water. 
The real species of concern are the ones that--the oysters, the 
more sedentary species--crabs, for example, which are typically 
in State-run waters. And so, a clear part of what we're doing 
now in the Gulf, and what we would do, prospectively, as this 
oil spreads, is to work extremely close, as we do in an 
established cooperative program with the States, to ensure the 
safety of shellfish and other fish that don't move away, and 
where the oil itself is much more likely to settle and 
contaminate.
    Again, when we look at this from a scientific, public-
health, food-safety perspective, those are the species of 
concern that we have to watch, because they don't avoid the oil 
the way finfish do. Again, we are very closely watching that, 
and we'll continue to be ahead of that. Again, with closures, 
what the States do in their waters--the State waters, out to 3 
miles--they do that, you know, very collaboratively with us. I 
think that's where, in terms of the public health concern, we 
continue to be focused.
    The Chairman. Get that information to my staff.
    Mr. Taylor. Yes, sir.
    The Chairman. I want to follow up on this, because, again, 
you're right, fish can swim away from that. I'm not a fish 
expert. But, it would seem to me--what I read about the smaller 
fish eating that dispersant, but those were eaten by bigger 
fish.
    Mr. Taylor. We'll follow up on that and give you a full 
report on that.
    The Chairman. OK, thank you.
    Mr. Taylor. Yes, sir.
    The Chairman. I appreciate that very much.
    That's all I have for now.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    Dr. Miller, have you been collaborating, then, with the CDC 
to ensure that we have a good scientific base for conducting 
the studies on the long-term impacts of the oil spill?
    Dr. Miller. Yes. Thank you for the question.
    We have not only been collaborating with CDC, but the 
Assistant Secretary for Preparedness and Response of HHS, and 
OSHA, SAMHSA, as well as other groups, and looking at these 
issues, in terms of both what we can do for the short-term and 
the long-term evaluation of health effects and research and 
monitoring and the tools that we have available and the tools 
that we might be able to utilize for evaluating these 
populations of concern. Absolutely.
    Senator Enzi. Thank you. Do we have any conclusive studies 
today that indicate severe long-term health impacts on workers 
and individuals in communities near oil spills?
    Dr. Miller. We do not. The studies are really inconclusive. 
They do point to--for us to keep our concern levels high and to 
be looking at this to make sure that we are watching and 
looking and making sure that we do the research that's needed.
    Another issue that we haven't really talked about, but is 
really having the good exposure data to go with our evaluation 
of health effects, and to work with EPA and others that are 
collecting exposure information so we know where the fumes or 
airborne exposures may be going, and be able to put that into 
our consideration, as well.
    Senator Enzi. Are these information-gathering things that 
you're doing now--will they be based on clinical information or 
mail surveys, or both, or how do you gather the----
    Dr. Miller. Yes. That's to be determined. We'll be looking 
forward to the IOM meeting, next week, for additional 
expertise. There has been a few groups in the world that have 
tried to look at this with some of their clinical research 
programs, and we're going to look closely at those. And it's a 
matter of trying to put together the best projects and research 
programs that fit. And we'll be reaching out to our research 
community network at NIH, as well as across the country and 
other places.
    Senator Enzi. Thank you.
    Mr. Taylor, I know that NOAA shut down fishing in a large 
segment of the Gulf, and that the FDA is working with the--as 
you've explained well--testing seafood and--however, there are 
both Federal and State waters in the Gulf, and I'd like to know 
how the FDA and NOAA are going to work with the States to 
implement a unified reopening of the protocol. Are the plans 
developing for a reopening?
    Mr. Taylor. Yes, Senator Enzi. We've been in constant 
dialogue with NOAA and with the States to work out reopening 
protocol. And I think we're very close to having a protocol 
that we can agree on and that can be a sound basis for 
reopening, as I indicated, as soon as possible, consistent with 
public health protection. I think it is--and I think the States 
and we very much agree--important that we have a consistent 
protocol that would apply to both Federal waters and State 
waters. So, we're well on the way to doing that. I think we're 
very close.
    Senator Enzi. Good. That's reassuring. Can you give me the 
most up-to-date figures on the number of samples that you're 
processing per week with the lab, and any backlog of samples 
that are waiting to be tested?
    Mr. Taylor. Yes.
    Senator Enzi. And if there is a backlog, how you're going 
to deal with the backlog?
    Mr. Taylor. Yes. We are in a very steady and really rapid 
build up of capacity. The testing that we needed to do here 
requires special equipment, and there was an acquisition 
process. But, we've got one of our labs up and running now. 
We're working to have three more FDA labs open by the end of 
June. Then, we're working with four State labs, which are part 
of an established so-called ``food-borne emergency response 
network'' of State labs that we work with on a regular basis. 
We'll have a total of eight labs around the country that will 
have the capacity to do about 40 samples a week. And so, we're 
going to have a robust ability to do samples.
    We do have some samples in our lab now from the States, a 
couple hundred samples, I think. We can get you the exact 
number.
    Mr. Taylor. But, I think our capacity is coming on very 
quickly. And I think, when the time comes to begin doing the 
reopening sampling, you know, we'll be well positioned to do 
that in a timely way.
    Senator Enzi. OK. In the supplemental, there's $2 million 
for this testing and monitoring of food contamination. It's 
under FDA. Is that going to be enough? Or for how long do you 
anticipate that that would last?
    Mr. Taylor. Well, we think that that will make a really 
meaningful difference to our ability to work with the States 
and to do the testing. One, we're investing some of that money 
in an electronic device that can detect the volatile compounds 
that are also detectable by human beings through this sensory 
testing that people can be trained to do. But, this would 
really enhance the capacity to screen samples that might be 
particularly contaminated, and reduce the load of samples that 
have to go in for chemical analysis. Because if we can detect, 
through the organoleptic method, the sniffing, or 
electronically, contaminated samples, we don't have to put it 
into the chemical analysis; we know that that fish is no good. 
So, that'll be a big help. Plus, that's buying some additional 
equipment for the labs that--it will give us the capacity to 
bring these labs online. So, we think we'll have the ability to 
do what's needed.
    Senator Enzi. There's a small company that started at the 
University of Wyoming, that started as a result of the little 
anthrax problem that we had here, where they have a speed gun 
that--that's what it looks like--that you point at the 
chemical, pull the trigger, and, in about 30 seconds, it gives 
a readout on what the chemical is. I don't know if they've 
looked at fish and contamination that way, but I will be 
checking with them.
    Mr. Taylor. All right, thank you.
    Senator Enzi. I thank all of you for your efforts and your 
great answers today.
    Mr. Taylor. Thank you, sir.
    Senator Enzi. Thank you, Mr. Chairman.
    The Chairman. OK, thank you, Senator Enzi.
    And I thank you, panel. It was very, very interesting.
    We have some follow up. And I'm sure that there'll be some 
other questions from other Senators, so I request to keep the 
record open for 10 days for Senators to submit statements and 
questions for the record.
    So, again, I thank the panel very much.
    The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Senator Landrieu

    Thank you, Chairman Harkin and Ranking Member Enzi, for 
convening this very important hearing. As we enter the third 
month of the catastrophic oil spill in the Gulf of Mexico, an 
examination of its public health impact is critical. The short-
term health effects are beginning to surface, and the long-term 
effects loom. Now is the time to assess the Federal 
Government's response and make sure we are doing everything we 
can to protect the health of Gulf Coast residents.
    In my home State of Louisiana, coastal residents will be 
most affected by the Deepwater Horizon oil spill. What deeply 
concerns me is the fact that many people living in southeast 
Louisiana are already vulnerable to health risks. One in five 
Louisianians do not have health insurance; and for those who do 
have insurance, accessible medical care is by no means 
guaranteed. Over one-third of Louisianians live in a Primary 
Care Health Professional Shortage Area and nearly half live in 
a Mental Health Professional Shortage Area. As Federal agencies 
spring to action, I urge them to keep in mind the vulnerability 
of the Gulf Coast population. The needs of these citizens must 
be at the heart of a coordinated and sustained public health 
response in the coastal region.
    The physical health impacts of the Deepwater Horizon oil 
spill are already emerging. As of last week, 71 illnesses 
related to ``prolonged exposure to the oil spill and 
dispersants'' had been reported to the Louisiana Department of 
Health and Hospitals. The extraordinarily high levels of oil 
and dispersants in the coastal region present an array of 
health risks, including respiratory complications, headaches, 
throat and eye irritation, and rashes. Many of these risks stem 
from compromised water and air quality; but we must also 
consider the potential health impacts of tainted seafood. As 
tens of thousands of barrels of oil spew each passing day, the 
number of illnesses will almost certainly rise. It is clear 
from the testimonies of the witnesses here today that the 
Federal Government has begun coordinating efforts to address 
the physical health impacts of the spill. However, we know that 
much more work lies ahead.
    Most immediately, we must ensure the protection of the men 
and women courageously responding to and cleaning up the spill. 
Fifty of the seventy-one Louisianians reporting illnesses are 
oil spill response workers, who are most exposed to chemical 
and physical hazards of the cleanup effort. These workers are 
particularly at risk of exposure to chemical dispersants, 
weathered crude oil, benzene, oil mist, polycyclic aromatic 
hydrocarbons, and diesel fumes. They are also at risk of 
physical hazards, like sun exposure, heat stress, and injuries 
caused by working on slippery or uneven surfaces.
    In a May 26 article in the Los Angeles Times, a local 
fisherman who has been hired by BP to help clean up the spill 
said ``They [BP officials] told us if we ran into oil, it 
wasn't supposed to bother us. . . . As far as gloves, no, we 
haven't been wearing any gloves.'' Lack of access to 
appropriate protection is simply unacceptable. Additionally, 
many health problems may be going unreported because these 
fishermen are now dependent upon the jobs BP is providing them 
for their economic livelihood. The president of the United 
Commercial Fishermen's Association in St. Bernard Parish, 
George Barisich, said recently that many fishermen have told 
him about feeling ill. He said ``It's an unwritten rule, you 
don't bite the hand that feeds you.'' It is critical that these 
workers have the resources and information they need to access 
care before problems become more severe.
    It is absolutely imperative that the oil spill response and 
cleanup operations are as safe, effective, and efficient as 
possible. BP must make sure that their emergency response site 
training meets standards set by the Occupational Safety and 
Health Administration (OSHA). In the long run, I urge Congress 
to examine BP's adherence to OSHA requirements and to explore 
ways to strengthen training and safety regulations for first-
responders. We must be prepared to protect our emergency 
responders in this disastrous spill and in any spill that may 
occur in the future.
    In addition to the physical impacts of the Deepwater 
Horizon oil spill, we must also consider this tragedy's effects 
on mental health. Gulf Coast residents are all too familiar 
with the anxiety, post-traumatic stress, and depression such 
disasters can produce. In just the past 5 years, Louisianians 
have suffered through Hurricanes Katrina, Rita, Ike, and 
Gustav. Now, as this oil spill devastates the Gulf Coast, I 
fear the extreme stress caused by yet another catastrophe will 
endanger the mental health of coastal residents. We must, then, 
ensure that counseling and other mental health services are 
provided swiftly and for as long as they are needed.
    Looking ahead, we need to invest in efforts to 
comprehensively study the health impacts of any oil spill of 
``national significance.'' Of the 38 major oil spills that have 
occurred across the globe, only seven have been studied for 
their effects on human health. This dearth of research has led 
to great uncertainty in predicting the long-term health 
consequences of the oil spills. To remedy this problem, I urge 
Congress to authorize funding for comprehensive studies of the 
health impacts of this spill and any future spill of ``national 
significance.''
    I commend the Federal agencies that have come together to 
wage a coordinated public health response to the oil spill. As 
they work to address the physical and mental health needs of 
those affected by the spill, I urge them to continue working 
collaboratively with each other and with the local health 
providers in affected regions. The Federal Government's actions 
will only be effective if they are aligned with community 
efforts.
    As Federal agencies and Gulf Coast communities work 
together to mitigate the health impacts of the spill, I will 
continue to press BP to take responsibility for healing the 
Gulf Coast. I am encouraged by the public health response that 
is already underway, but I will not be satisfied until BP does 
everything in its power to ensure that affected Gulf Coast 
residents are made whole.

                  Prepared Statement of Senator Vitter

    I want to thank Ranking Member Enzi and Chairman Harkin for 
their leadership examining health effects on Louisianians and 
Gulf Coast residents caused by the oil spill.
    This is a tragedy for Louisiana and America. Eleven lives 
have been lost. The impact on the environment is historic and 
widespread. And the harm to the Louisiana and Gulf Coast 
economy will be felt for years to come. While the response and 
cleanup is ongoing, we must ensure that cleanup workers and 
citizens are not exposed to potential health risks and hazards 
and that they have the necessary respiratory protection they 
need.
    We must also ensure that there is a coordinated and unified 
response for the cleanup workers and citizens. Sadly, there are 
already a number of patients with oil-spill related illnesses. 
I am interested to learn more from CDC and HHS about their 
response to protecting workers and residents from health 
hazards.
   Response to Questions of Senator Harkin by Michael R. Taylor, J.D.
    Question 1. It is my understanding that some chemicals can 
bioacummulate in a food chain, leading to high concentrations of 
chemicals in large animals. Do the chemicals found in oil or the 
dispersants used to dissipate oil bioaccumulate in seafood? If so, what 
steps are you taking to ensure that seafood does not contain unsafe 
levels of chemicals?
    Answer 1. The Federal Government is taking a four-pronged approach 
to ensure that seafood from Gulf waters is not contaminated by oil. 
This approach consists of (1) precautionary closures and surveillance; 
(2) testing of seafood at primary processing plants; (3) stepped-up 
emphasis on FDA's Hazard Analysis and Critical Control Points (HACCP) 
regulations, and (4), when appropriate, a strict re-opening protocol 
for closed waters. The National Oceanic and Atmospheric Administration 
(NOAA) has the authority to close Federal waters to commercial fishing 
and States have the authority to close waters within State 
jurisdiction. FDA works closely with NOAA and the States whenever 
commercial fishing waters are closed for public health reasons and 
again when they are re-opened to harvest. NOAA is monitoring fish 
caught just outside of closed Federal areas and testing them for both 
petroleum compounds and dispersants. The results of the sampling will 
help ensure that NOAA's closed areas are sufficiently protective to 
prevent the harvest of tainted fish. State fisheries enforcement 
agencies are performing similar enforcement activities in their 
jurisdictional waters.
    Crude oil is a mixture of many different chemicals, a number of 
which are well established as being harmful to people if inhaled, 
absorbed through the skin, or ingested in contaminated food or water at 
doses of concern. Chemicals such as polycyclic aromatic hydrocarbons 
(PAH) are toxic components of crude oil that are of high concern if 
ingested. For public health and regulatory purposes, PAHs are 
unintended environmental contaminants, for which FDA customarily sets 
limits at a level that is protective of public health. FDA has set 
limits for PAHs in previous oil spill situations.
    Finfish have the ability to absorb PAHs if exposed to oil, however, 
the finfish tend to metabolize (breakdown and eliminate) the petroleum 
compounds quickly after exposure. Oysters will likely retain petroleum 
components for an extended period of time after exposure to oil because 
they are stationary filter feeders. Shrimp and crab metabolize oil at a 
faster rate than oysters, but slower than finfish. Seafood species that 
are not sedentary, such as finfish, will deliberately move away from 
sources of oil contamination based on their sensitivity to concentrated 
levels of the chemicals present. Given their limited mobility, testing 
oysters is a particularly sensitive way to determine if an area is safe 
to harvest.
    NOAA is collecting a variety of types of seafood including finfish, 
shrimp, crabs, and shellfish from the Gulf for analysis. Sensory 
experts check the scent and look of raw seafood, and the taste and 
scent of cooked seafood. NOAA has a voluntary seafood inspection 
program where seafood distributors and processors are inspected 
dockside. NOAA will be primarily focusing on offshore species while FDA 
will be concentrating with the States to review seafood safety of near 
shore species (oysters, crabs and shrimp).
    To ensure that seafood does not contain unsafe levels of chemicals, 
FDA has implemented a risk-based surveillance and sampling program 
targeting seafood products at Gulf Coast seafood processors. The Agency 
is targeting oysters, crabs, and shrimp, which could retain 
contaminants longer than finfish. This sampling has provided 
verification that seafood on the market is safe to eat with respect to 
potential contamination associated with the oil spill. FDA's sampling 
activities are designed to complement the dockside monitoring of 
finfish already planned by NOAA. If adulterated seafood is found on the 
market, both FDA and the States have the authority to seize the product 
and remove it from the food supply.
    FDA has developed a new testing method that is quicker and is also 
effective at finding whether PAHs are present in seafood at levels 
approaching the established levels of concern. The new test method is 
being used for all reopening samples. The test uses acetonitrile, a 
chemical solvent, to remove the chemical compounds of concern from the 
seafood. These chemicals of concern are then separated from one another 
using high performance liquid chromatography and detected by 
fluorescence spectroscopy. These chemical compounds of concern to 
public health can be detected by fluorescence spectroscopy at extremely 
low concentrations (parts per billion). Based on the use of this test 
to search for more than a dozen types of PAHs, FDA can confirm that the 
level of these chemicals in Gulf seafood are below the levels that 
would cause public health concern.
    FDA operates a mandatory safety program for all fish and fishery 
products under the Food, Drug, and Cosmetic Act, the Public Health 
Service Act, and related regulations. FDA's seafood HACCP regulation 
requires processors to identify and control hazards which are 
reasonably likely to occur. FDA has issued a letter reminding fish and 
fishery product processors of the Agency's regulations and policy 
concerning the food safety hazard of chemical contaminants in the 
environment, including the importance of verifying that fish they are 
processing have not come from closed waters. In addition, FDA is 
increasing inspections of Gulf Coast seafood processors to ensure 
compliance with HACCP regulations.
    NOAA, FDA, and the Gulf Coast States have agreed on a protocol to 
determine when closed harvest waters can be re-opened. Under the 
protocol, harvest waters will not re-open until oil from the spill is 
no longer present and the seafood samples from the area successfully 
pass both sensory evaluation by trained experts and a chemical analysis 
to ensure there are no harmful oil residues. NOAA, FDA, and the States 
feel confident that when this protocol is followed, the seafood 
harvested from the re-opened areas will be fit for consumption.
    With regard to your question on chemical dispersants, FDA conducted 
an assessment of the chemicals in the dispersants being used and their 
potential to bioconcentrate in fish. The assessment included a review 
of current scientific literature, Material Safety Data Sheets (MSDS) 
and a detailed ingredient list provided by the dispersant manufacturer 
which identifies and describes the physical properties and biological 
effects of the dispersant chemicals. These dispersant chemicals are 
detergent and solvent compounds and include several commonly found in 
consumer products such as household detergents, medicines, cosmetics 
and toothpaste.
    The potential for a chemical to become concentrated in aquatic 
organisms is described by the bioconcentration factor (BCF). The 
scientific community generally accepts the following scale for 
measuring BCF: high potential = BCF > 1000, moderate potential = 1000 > 
BCF > 250, low potential = BCF < 250. For food safety purposes, it is 
generally accepted that any chemical with a BCF of less than 100 does 
not pose a public health concern. The constituents and characteristics 
of COREXIT EC9527A and COREXIT 9500 dispersants are as follows:

    <bullet> Propylene glycol, a constituent of both COREXIT EC9527A 
and COREXIT 9500, is generally recognized as safe (GRAS) by the FDA in 
21 CFR 184.1666, for use as a direct food additive under the conditions 
prescribed. Among other uses, it is a moisturizer in medicines, 
cosmetics and toothpaste. Propylene glycol has a BCF of 3, which is a 
low order of bioconcentration.
    <bullet> 2-butoxyethanol, a constituent of COREXIT EC9527A, is 
also a primary ingredient of various cleaners, liquid soaps and 
cosmetics. 2-butoxyethanol has a BCF of 3, again a low order of 
bioconcentration. The half-life for 2-butoxyethanol in water is 
approximately 1-4 weeks, indicating that it is readily biodegradable.
    <bullet> Proprietary organic sulfonic acid salt, a constituent of 
both COREXIT EC9527A and COREXIT 9500, is reported by the 
manufacturer to be readily biodegradable, non-bioaccumulative, and 
moderately toxic to fresh water fish and invertebrates. It has a BCF of 
10, also a low order of bioconcentration.
    <bullet> Petroleum distillates, constituents of COREXIT 9500, are 
volatile organic solvents produced from crude oil (e.g., mineral 
spirits, kerosene, white spirits and naphtha). They are common in 
hundreds of consumer products, including lip-gloss, deodorants, and 
furniture polish. Petroleum distillates have BCFs ranging from 60 to 
80, indicative of a low potential for bioconcentration.

    Available information indicates that the dispersants being used to 
combat the oil spill do not bioconcentrate in seafood and therefore 
there is no public health concern from them due to seafood consumption. 
However, out of an abundance of caution and to obtain more information, 
FDA worked with NOAA to develop, validate and deploy a chemical test to 
detect dispersants in fish, oysters, crab and shrimp. Specifically, the 
method tests for the presence of dioctyl sulfosuccinate sodium salt 
(DOSS), which is a significant component of the dispersants applied in 
the Gulf, and therefore, an effective marker for the presence of these 
compounds.
    Beginning in late July, FDA and NOAA have been using this 
analytical method to test for the potential presence of dispersants in 
seafood harvested in the Gulf. Seafood samples were collected from June 
to October covering a wide area of the Gulf, both from sampling in open 
areas in State and Federal waters and from fishermen who brought fish 
to the docks at the request of Federal seafood analysts. The samples 
come from a range of species, including grouper, tuna, wahoo, 
swordfish, gray snapper, butterfish, red drum, croaker, shrimp, crabs 
and oysters. As of October 15, scientists have chemically tested 1,735 
seafood samples for the presence of dispersant using the DOSS detection 
method.
    The results confirm what we have been finding through our sensory 
testing--that none of the samples pose a threat to human health. Trace 
amounts of DOSS (below one part per million) were found in 13 of the 
1,735 samples, well below the level of concern of 100 parts per million 
for finfish and 500 parts per million for shrimp, crabs and oysters.
    FDA and NOAA are now using this second test for dispersants, in 
addition to the sensory and chemical analysis of polycyclic aromatic 
hydrocarbons (PAHs), before reopening additional Federal waters. FDA 
also intends to use this testing methodology in our post-reopening 
surveillance, consistent with additional funding that may be made 
available.
       Response to Questions of Senator Enzi by John Howard, M.D.
    Question 1. In your testimony you noted that the agency has 
identified seven groups of workers to focus studies and health 
monitoring including: source control workers, workers on clean up 
vessels burning oil, workers on clean up vessels not burning oil, 
equipment decontaminant workers, wild life cleanup workers, and waste 
stream cleanup workers. Has the agency included each type of the worker 
mentioned above included in the Center for Disease Control and 
Prevention's (CDC) roster of cleanup workers?
    Answer 1. Yes, each of the seven groups is included in the roster 
of cleanup workers.

    Question 2. With the understanding that not all workers have been 
included in the roster at this time, does the roster also include BP 
employees, or only public workers and volunteers?
    Answer 2. The roster includes all workers, including BP employees, 
public workers, and volunteers.

    Question 3. As the CDC continues to provide recommendations for 
respiratory protection and use of personal protective equipment will 
those recommendations apply to BP workers, or only public workers and 
volunteers?
    Answer 3. CDC's National Institute for Occupational Safety and 
Health (NIOSH) and the Department of Labor's Occupational Safety and 
Health Administration (OSHA) have jointly issued Interim Guidance for 
Protecting Deepwater Horizon Response Workers and Volunteers (see 
http://www.cdc.gov/niosh/topics/oilspillresponse/protecting/). This 
Interim Guidance contains specific recommendations for all workers and 
volunteers participating in the Deepwater Horizon Response and includes 
guidance on the selection of protective clothing and the use of 
respiratory protection. Recommendations contained in the Interim 
Guidance will be updated as more information about exposures is 
collected and assessed in relationship to the incidence and prevalence 
of symptoms, illnesses and injuries.
Response to Questions of Senator Enzi by Aubrey Keith Miller, M.D., MPH
    Question 1. As you continue to collect data and assess the best 
approach to studying the short- and long-term health impacts of the oil 
spill on workers and the general population, how will you ensure that 
researchers have an appropriate base to compare between the health 
conditions of individuals before and after the spill?
    Answer 1. Having health and exposure information on individual 
workers before and after experiencing any spill-related exposures is 
one possible strategy for establishing links between the exposures and 
changes in health. While we would have liked to have had such data, 
this is not possible for the vast majority of the oil clean-up 
workforce. Fortunately there are other strategies that we can use to 
establish links between potential exposures and health outcomes. As 
part of our long-term health follow-up efforts we plan several 
different approaches typically used in studies of other occupational or 
population cohorts. For example, we will:

    <bullet>  Collect self-reported data on health status before the 
oil spill to contrast with information on current and future health 
status.
    <bullet>  Incorporate pre-existing baseline medical records and 
data that are available from workers from BP, the Coast Guard, the 
State National Guard, or professional hazard clean-up firms.
    <bullet>  Include workers that never had an opportunity for 
exposure and those individuals who signed up for clean-up work, but 
were not hired by BP, to serve as a comparison group.
    <bullet>  Carry out internal comparison groups of workers with 
potentially higher versus lower exposures based on development of a 
semi-quantitative job-exposure matrix that links environmental and 
biomonitoring data to specific jobs, tasks, and locations.
    <bullet>  Assess health effects in relation to specific clean-up 
tasks, (with differing levels of exposure opportunity) distance from 
the spill or use of related chemicals, and by duration of work in 
specific job categories.

    The focus of short-term and long-term research on health effects 
will be on comparing groups of workers we classify as having been 
exposed to oil, dispersants, or mixtures with those we classify as 
having not been exposed, or comparing those with the greatest to the 
least opportunity for exposure based on job tasks, location, and 
timeframe. As we follow groups with varying degrees of exposure or 
exposure opportunity over time, we should be able to determine that 
certain health outcomes occur more or less frequently among groups of 
individuals with specific presumed exposure levels. This finding will 
help us determine whether new cases of a condition are more common in 
one group than in another. We will never be able to say with complete 
certainty that a new illness in a specific individual is due to a 
specific oil spill exposure, but we hope to be able to say that a 
condition is or is not more likely to occur in those with such 
exposures.
    Response to Questions of Senator Enzi by Michael R. Taylor, J.D.
    Question 1. I understand FDA is using ``e-nose'' technology to 
assure food safety in the Gulf. Please tell me more about this 
technology. For example, how long does it take to process a sample? How 
many e-nosenose machines are in use now, and how many are anticipated 
in the coming weeks? How much does each machine cost? What are the 
advantages and disadvantages of e-nose versus other detection 
technologies?
    Answer 1. ``Electronic Nose'' or ``E-Nose'' instruments analyze 
odors and volatile organic compounds (VOCs) in a way similar to the 
human nose. The E-Nose technology provides objective instrumental 
measurements. This technology will augment the current human sensory 
panel analyses.
    A variety of E-Nose instrument and technology platforms are 
available. The one currently being installed at the Gulf Coast Seafood 
Laboratory (GCSL) in Dauphin Island, Alabama and in FDA's mobile lab is 
the Heracles Ultra-Fast Gas Chromatography (GC) system (Alpha MOS 
Company). For analysis, a seafood sample is placed in a vial, heated, 
and the head space gas is injected into the system. The system consists 
of two short columns of different polarities, coupled to two flame 
ionization detectors. The chromatograms generated are treated as a 
global fingerprint which can be used to identify and quantify VOCs. 
With appropriate comparisons to sensory panel analyses, this system can 
be calibrated to assess taint. A sample can be analyzed in 
approximately 15 minutes. The total amount of FDA's contract award for 
these two instruments was $279,478.
    FDA is also considering purchasing additional E-Nose instruments 
with additional capabilities, such as the ability to confirm analytical 
results. FDA expects that instruments with additional capabilities are 
likely to cost more than the Ultra-Fast Gas Chromatography E-Nose 
system.
    FDA currently has two older E-Nose sensor instruments. These 
instruments are located at our GCSL and College Park, MD, facilities 
and are each 12 years old. FDA has purchased the Ultra-Fast Gas 
Chromatography E-Nose system, and intends to purchase an additional 
instrument(s), to update our equipment to provide further support and 
capacity in this effort.
    One advantage of E-Nose technology is that it provides objective 
instrumental results and records. The GCSL has demonstrated in 
controlled wet-lab exposures that the metal oxide E-Nose instrument is 
able to detect VOCs from petroleum contaminated oysters and fish. FDA 
also used the E-Nose to successfully detect seafood contamination after 
Hurricane Katrina. The updated E-Nose instruments, as described above, 
are much more sensitive than the model previously used by FDA.
    There are also a limited number of expert human assessors. While 
additional State personnel may be trained as assessors to increase 
capacity, these trainee assessors are unlikely to be as proficient as 
the experts. E-Nose instruments may consequently provide an opportunity 
to increase FDA analytical capacity and throughput.
Response to Questions of Senator Dodd by Lisa Kaplowitz, M.D., M.S.H.A.
    Question 1. Dr. Kaplowitz, as Chairman of the Senate Children and 
Families Subcommittee and the author of the legislation that created 
the National Commission on Children and Disasters, I am very concerned 
with the various impacts a disaster like this one has on children. In 
your testimony you reference a number of efforts that the Federal 
Government is undertaking to evaluate and treat the potential health 
effects of the oil spill, not only for workers cleaning up the oil 
spill, but for the general population living in the Gulf region as 
well. Can you describe the monitoring and surveillance efforts that are 
being undertaken to protect the health of children? What steps can the 
Federal Government take to address the needs of children in the wake of 
this disaster?
    Answer 1. The HHS Centers for Disease Control and Prevention (CDC), 
in coordination with State and local health departments, conducted 
surveillance across the Gulf States for health effects related to the 
oil spill. Early on, CDC worked with States to help define what to 
watch for in their own surveillance systems and what enhancements to 
make to their surveillance systems to have more effective surveillance 
of health effects related to the oil spill. States shared the results 
with us (and with each other). This State-based surveillance concluded 
on October 6 due to the absence of reports of new cases of self-
reported exposures. CDC also used established national surveillance 
systems: The National Poison Data System and BioSense. These 
surveillance systems were being used to track symptoms potentially 
related to the oil spill. A summary of State findings are posted on the 
CDC Web site. See http://emergency.cdc.gov/gulfoilspill2010/
2010gulfoilspill/health_
surveillance.asp.
    Throughout the active oil spill response, CDC's Environmental 
Health Team reviewed EPA environmental data with the purpose of 
determining whether exposure to oil, oil constituents, or dispersants 
might cause short-term or long-term health effects. Data include 
sampling results for air, water, soil/sediment, and waste oil samples 
(material actually reaching the beach or marsh). CDC coordinated with 
other Federal agencies, including the Environmental Protection Agency 
(EPA), the National Oceanic and Atmospheric Administration (NOAA) and 
CDC's National Institute for Occupational Safety and Health (NIOSH), as 
well as some States, to review the available data. The review utilized 
comparison values based on a child's exposure to identify potential 
hazards. As a follow-up, the area where the sample was collected was 
also evaluated to determine the likelihood of exposure.
    CDC has numerous fact sheets on their Web site, including a fact 
sheet for parents with specific information on how to protect children 
from oil exposure. The fact sheet is available at http://
www.bt.cdc.gov/gulfoilspill2010/info_for_parents.asp. CDC has also used 
social media to direct attention to our fact sheets. Our State partners 
have posted similar guidance.
    The HHS Substance Abuse and Mental Health Services Administration 
(SAMHSA) and CDC are also enhancing ways to collect and monitor 
behavioral health data. The Division of Behavioral Surveillance, under 
the Public Health Surveillance Program Office of CDC, will conduct a 
telephone survey in the Gulf coast States of Florida, Alabama, 
Mississippi, and Louisiana. The survey will monitor mental health 
status, including measures of anxiety, depression, potential stress-
associated physical health effects and other behavioral health 
indicators in the adult population in 25 coastal counties impacted by 
the BP Deepwater Horizon Oil Spill. The survey questionnaire has been 
developed by CDC in partnership with SAMHSA and State public health and 
mental health departments from Louisiana, Mississippi, Alabama, and 
Florida. The objective of the survey is to provide State health 
departments, SAMHSA, and others as appropriate information that can be 
used to determine mental health service needs among the population in 
the affected areas. The survey will collect data from a random sample 
of telephone households which include land line telephones. 
Approximately 2,500 interviews will be completed each month. The survey 
will be limited to adults 18 years or older. Interviews are anticipated 
to last approximately 20-25 minutes. Data collection is expected to 
begin December 2010 and will continue monthly for 1 year.
    SAMHSA also launched a new toll-free helpline to provide 
information, support and counseling for families and children affected 
by the BP Deepwater Horizon oil spill. Part of the Obama 
administration's long-term oil spill recovery plan, the Oil Spill 
Distress Helpline (1-800-985-5990) links callers to behavioral 
healthcare services and will serve as an important resource for the 
localized oil spill outreach efforts in the Gulf Coast States. The 
Helpline will route callers to the nearest Gulf Coast area crisis 
center, where trained staff from the region will answer calls and 
provide assistance. In addition, these crisis centers are working to 
provide support via text messages, a capability which will launch later 
this fall. The CDC surveillance enhancements and the helpline are 
funded by BP's $10 million contribution to SAMHSA in support of 
behavioral health prevention and service activities.
    The HHS National Institutes of Health is also interested in 
establishing one or more university-community research consortia in the 
Gulf Coast region to assess health effects of the oil spill on local 
communities. In these consortia, multi-disciplinary teams of scientists 
would come together to design and implement a series of interrelated 
studies related to the health effects of the oil spill. The scientific 
priorities addressed through the program would not be dictated; 
consortia partners would identify specific scientific questions and 
topics related to the effects of the oil spill that they would pursue. 
Possible topics could include physical, chemical, and psychosocial 
effects and their interactions; maternal and child health; adolescent, 
child, and adult behavioral health issues; health disparities; human 
studies that assess exposure to contaminated air, water, and dietary 
sources of chemical mixtures; adverse effects on the skin and immune 
function; and toxicologic studies of environmental samples.
    In summary, HHS takes seriously its responsibility to protect and 
promote the health of all citizens and is actively working with 
Federal, State, local, and non-governmental partners to provide a 
coordinated response to the Gulf Coast oil spill. In supporting the 
affected States, HHS will continue to pay explicit attention and 
leverage available resources to address the physical and mental needs 
of affected communities, including vulnerable children.

    Question 2. You also referenced the creation of an IOM panel of 
experts to study the health issues related to the oil spill, which 
would delineate the populations most vulnerable to these health issues. 
Are children one of the populations the panel will study?
    Answer 2. Much is unknown about the potential short- and long-term 
health effects of the oil spill, which is why the HHS Secretary asked 
the Institute of Medicine (IOM) to host public workshops and conduct 
periodic, independent reviews of the Federal Government's surveillance 
and monitoring of the physical and behavioral health effects from the 
Gulf of Mexico oil spill. The IOM will use what it learns to provide 
information and advice to HHS on research priorities, research 
progress, and emerging concerns.
    At the IOM's first public workshop in June, HHS learned that the 
scientific community's understanding of the long-term health effects of 
exposure to oil is greatly hindered by the lack of previous studies. 
There is a historical lack of public health studies and monitoring 
after oil spills. The few lessons learned that have been collected and 
studies that have been conducted have rarely if at all focused on 
children, women, and families. In contrast to the limited information 
we have on long-term health effects, the behavioral and mental health 
impacts of oil spills, including the impacts on families and children, 
are conclusive. Experts at the IOM Workshop relayed that children and 
pregnant women have unique physiological vulnerabilities and that there 
may be declines in children having or maintaining relationships with 
other children in the community, poor performance in school, and 
difficulty in family relationships. In fact, the bulk of the health 
impacts in the Gulf region are on the behavioral health impacts on the 
community. As for long-term research plans, multiple topics and funding 
streams are being considered. While final decisions will be informed by 
the formal conclusions of the aforementioned IOM workshop, as well as 
ongoing surveillance and monitoring in the region, attention to the 
potential physical and mental health effects of the oil spill on 
children are already being considered.

    Question 3. Finally, you discussed the potential behavioral health 
response to this disaster. Amongst the potential responses are an 
increase in depression, substance abuse and use, and family violence, 
among others. These responses clearly have a serious impact on children 
in affected families. What efforts is the Department of Health and 
Human Services taking to address the possible behavioral health impacts 
on children of this oil spill?
    Answer 3. HHS is directing attention and resources to address the 
behavioral health issues arising from the oil spill and ensuring 
children and other vulnerable populations are considered in the Gulf 
Region's response efforts. HHS is engaged primarily in support of State 
and local efforts to assess and meet the behavioral health needs of 
workers responding to the spill and Gulf Coast residents, including 
children. To aid State efforts, the Substance Abuse and Mental Health 
Services Administration (SAMHSA) convenes a weekly call for the 
Disaster Behavioral Health Coordinators in the Gulf Coast States. The 
purpose of the calls is to facilitate the provision of technical 
assistance, assess the impact of this event in each State, allow States 
to share information, and allow the Department to maintain a current 
understanding of the circumstances. To date, States report increases in 
the need for behavioral health services and express concern around 
behavioral health issues related primarily to job loss. Four of the 
five affected States have written or are working on proposals for 
behavioral health funding from BP, and SAMHSA has provided technical 
assistance to the States as needed.
    States have reported a need for consistent surveillance methods for 
behavioral health needs and requested assistance with messaging and 
Public Service Announcements (PSAs). HHS and CDC Communications staff 
have been proactive in reaching out to the States to provide assistance 
with PSAs and messaging specifically related to substance use and 
abuse. HHS is working to streamline messages to States and partners on 
information about the signs of stress, standard talking points, 
translating fact sheets for children, parents, and teachers (in 
English, Southern Vietnamese, Spanish, Creole), and alternate formats 
to ensure accessibility. The Department is also currently finalizing 
fact sheets on information for parents and children, as well tips for 
stress management.
    HHS is providing information and resources to State Disaster Mental 
Health and Substance Abuse Coordinators on topics such as substance 
abuse prevention and potential outreach and crisis counseling 
activities that may be implemented to address behavioral health issues 
for workers, families, and children. In addition, the Department is in 
communication with universities and national non-governmental agencies, 
such as the American Red Cross and Catholic Charities, who are active 
in the affected areas and are also engaged in addressing behavioral 
health concerns.
    SAMHSA's National Child Traumatic Stress Network (NCTSN) hosted a 
webinar in July on ``Assisting Children and Families Affected by the 
Gulf Oil Spill.'' The panel discussed current concerns affecting 
children and families living in the Gulf Region; activities and 
resources that are currently available; and what is being planned for 
long-term recovery. The panel also discussed how mental health 
providers and rescue workers can protect themselves from burn-out and 
secondary stress.
    Finally, Louisiana held a Behavioral Health Summit in August, and 
the U.S. Surgeon General toured Alabama to highlight mental health 
concerns. The purpose of this ongoing communication project is to help 
the media translate key behavioral health messages to the public. HHS 
will continue to engage in efforts to mitigate the behavioral health 
impact of the oil spill on children in the affected region.
 Response to Questions of Senator Franken by John Howard, M.D., Aubrey 
       Keith Miller, M.D., MPH, or Lisa Kaplowitz, M.D., M.S.H.A.
    Question 1. BP has spread more than a million gallons of the 
dispersal agents, Corexit 9500 and Corexit 9527, to combat the spill. I 
was very concerned that the dispersant manufacturer resisted releasing 
the list of ingredients in these products. So we didn't know what this 
stuff was until EPA released the information last week.
    What do we know about the health effects of these chemicals--for 
workers, the food supply, and tourists?
    Answer 1. The long-term health impact of exposure to dispersants 
has not been studied. This is one area that will be further researched. 
CDC recommends calling the Poison Help Hotline at 1-800-222-1222 if 
someone thinks exposure to dispersant has occurred. If someone feels 
dispersants have made them sick, they should see a doctor immediately.
    The risk for adverse health effects is dependent on both the type 
and extent of exposure to a toxic substance and the inherent toxicity 
of the substance (risk-exposure X toxicity). For different population 
groups, the relative risk for adverse effects will be driven by 
differences in exposure. As in most cases, potential risks will be 
greatest for workers, those handling the dispersants or dispersant 
containing materials, because they will have the highest exposures. For 
seafood consumers, no risks are anticipated, as the chemical 
ingredients in dispersants are not expected to persist in the 
environment and be accumulated into marine organisms to any appreciable 
extent. For residents and tourists in Gulf Coast communities, risks are 
also expected to be minimal, since there is little opportunity for 
these people to come into contact with dispersant containing materials. 
Future monitoring of dispersant ingredients in seafood and along the 
Gulf Coast will allow us to confirm or, if necessary, modify this 
assessment. Additionally, toxicology studies to further evaluate the 
dispersants and oil materials that people may be exposed to will help 
inform our understanding and public actions regarding these chemical 
substances.
    Regarding the inherent toxicity of Corexit 9500 and 9527, the 
health effects that may be seen in workers under likely exposure 
conditions are primarily irritation, to the eyes, skin, nose and 
throat, and gastrointestinal tract, if sufficient material was inhaled, 
swallowed or came into contact with unprotected skin. Several of the 
ingredients are of very low toxicity and not expected to pose any risk 
of adverse health effects.
Workers
    CDC's NIOSH recommends that worker exposure to dispersants be 
reduced to prevent harmful respiratory and dermal health effects. CDC 
developed a fact sheet on reducing occupation exposures while working 
with dispersants. It is available at http://www.cdc.gov/niosh/topics/
oilspillresponse/dispersants.html.
    Workers can be protected by taking the following steps:

    <bullet>  Mix and load dispersants in well-ventilated areas.
    <bullet>  Use automated spraying systems to apply dispersants when 
available.
    <bullet>  Remain upwind of the mists that are generated if spray 
systems are manned.
    <bullet>  Wear nitrile gloves during mixing, loading, or spraying 
of dispersants to prevent skin irritation.
    <bullet>  Wear protective eyewear when mixing, loading, or spraying 
dispersants.
    <bullet>  Wash hands and any other body parts exposed to 
dispersants thoroughly with soap and water.
    <bullet>  If personal air monitoring (conducted with an air 
sampling device placed in the breathing zone) indicates the above steps 
are not effective at reducing exposures below applicable occupational 
exposure limits, then respiratory protection would be needed. 
Respirators should be used as part of a comprehensive respiratory 
protection program that includes proper selection, training, and 
maintenance. The NIOSH respirator topic page at http://www.cdc.gov/
niosh/topics/respirators/ provides information for safety and health 
officers who are designated to establish and conduct such programs.
Food supply
    The U.S. Food and Drug Administration (FDA) is the lead Federal 
agency for food safety. FDA and the National Oceanic and Atmospheric 
Administration (NOAA) are monitoring the oil spill and its potential 
impact on the safety of seafood harvested from the area. CDC is in 
constant communication with these agencies. Should a health concern 
arise, CDC will work quickly with other Federal and State agencies to 
make sure the public is informed.
    For more information about seafood safety, see the FDA Web site 
http://www.fda
.gov/Food/ucm210970.htm.
Coastal residents and tourists
    Although it is unlikely visitors and people living in coastal areas 
will come in contact with dispersants and brief contact with a small 
amount of dispersants should not cause harm, CDC recommends that 
coastal residents and tourists stay away from cleanup activities and 
follow health and safety advice or warnings from State or local 
government officials.
    The EPA is testing air and waters for dispersants daily along the 
Gulf shoreline and will put results on its Web site at: http://
www.epa.gov/bpspill/. CDC reviews EPA data for conditions that may pose 
a threat to human health and will notify the public if such conditions 
are detected.
    CDC has developed a fact sheet for coastal residents that provides 
information on dispersants. See http://www.bt.cdc.gov/gulfoilspill2010/
2010gulfoilspill/dispers
ants_coastal_residents.asp. People who think they have been exposed to 
dispersants should call the Poison Help Hotline: 1-800-222-1222.
    For more information about chemicals found in dispersants: http://
www.epa.gov/bpspill/dispersants.html.
   Response to Questions of Senator Franken by Lisa Kaplowitz, M.D., 
                                M.S.H.A.
    Question 1. I'm interested in what we've learned from public health 
emergencies where many different agencies had to work together to 
assess and monitor public health implications, like Katrina, the World 
Trade Center attack, and the 2008 Midwest floods.
    What type of infrastructure do we need in place so that we can 
respond effectively when public health emergencies arise?
    Answer 1. The Pandemic and All-Hazards Preparedness Act (the act) 
designated the HHS Secretary as the lead Federal official for public 
health and medical response to public health emergencies and incidents 
covered by the National Response Plan developed pursuant to section 
502(6) of the Homeland Security Act of 2002, or any successor plan, and 
created the Assistant Secretary for Preparedness and Response. Under 
the act, ASPR plays a pivotal role in coordinating emergency response 
efforts across the various HHS agencies and among our Federal 
interagency partners. Specifically with regard to the type of 
infrastructure needed for an effective emergency response, HHS adheres 
to the National Response Framework which establishes a comprehensive, 
national, all-hazards approach to domestic incident response. Within 
the NRF are 16 Emergency Support Functions.
3ESF #8 Response Activities
    The Department of Health and Human Services serves as the lead for 
Emergency Support Function 8 (ESF 8), Public Health and Medical 
Services, under the National Response Framework. This provides the 
mechanism for coordinated Federal assistance to supplement State, 
tribal, and local resources in response to a public health and medical 
disaster, incidents requiring a coordinated Federal response, or during 
a developing health and medical emergency.
    Under ESF 8, HHS serves as the lead Federal partner in ensuring 
that the Nation is maintaining appropriate levels of medical surge 
capacity, which is a critical element of our national, State, and local 
resiliency. HHS manages the Strategic National Stockpile, the Medical 
Reserve Corps, the National Disaster Medical System, the Emergency 
System for Advance Registration of Volunteer Health Professionals 
(ESAR-VHP) program, and other critical medical and public health 
resources that can be activated during catastrophic events.
    ASPR utilizes the HHS Secretary's Operations Center (SOC) as the 
focal point for command and control, communications, specialized 
technologies, and information collection, assessment, analysis, and 
dissemination for all HHS components under non-emergency and emergency 
conditions to support a common operating picture. It is continuously 
staffed and maintains operations 24 hours a day, 7 days a week (24/7).
    Because the SOC is always operational, it can rapidly enhance its 
services and staffing during times of crisis. When not in an emergency 
response mode, the SOC performs continuing surveillance of the 
following:

    <bullet> Public health data for special topics (e.g. influenza 
activity).
    <bullet> Reports from Regional Emergency Coordinators (RECs), HHS 
OPDIVS and other ESF #8 agencies that support State, Tribal, and 
jurisdictional incident management.
    <bullet> Media reports and other mass public information sources.
    <bullet> Natural disasters (e.g., earthquake activity, hurricanes).

    Watch Officers in the SOC maintain daily contact with other Federal 
operations centers to ensure situational awareness. Reports of 
incidents with potential public health or medical consequences are 
provided to the Duty Officer, who then alerts HHS senior staff as 
necessary. Critical public health and medical requirements are brought 
to the attention of the ASPR. During an event, the ASPR may deploy HHS 
liaisons to other Federal Emergency Operations Centers (EOCs).
    During the 2009 H1N1 influenza outbreak, for example, ASPR 
coordinated the interagency public health and medical response 
activities through a series of twice-weekly ESF #8 calls. During these 
calls, HHS regional health administrators and regional emergency 
coordinators report updates on their regions' pandemic influenza 
preparedness and response activities. Federal interagency partners also 
report their activities for group discussion and integration. Also, HHS 
worked very closely with the Department of Homeland Security (DHS) to 
develop a National Situation Report (SitRep) which is then inserted 
into the Homeland Security Information Network (HSIN). Working 
cooperatively, DHS and HHS have modified the SitRep to accurately 
reflect public health and medical issues. HHS has also been working 
with DHS to enable State and local public health officials to gain 
access to the HSIN so they can maintain their situational awareness.
    Other coordination activities include weekly calls between ASPR and 
the State health departments to discuss any challenges and issues that 
might necessitate Federal assistance. ASPR has also conducted calls 
with intensive care physicians to better understand the clinical 
picture of patients requiring extensive care in hospitals and to share 
information and experience to help identify best practices to improve 
patient outcomes. One of our critical concerns is to prevent local 
healthcare system failures from becoming regional healthcare system 
failures. Proactive measures to support our local partners in 
preventing system failure include 1135 waivers to decompress 
overburdened hospitals and deploying Federal assets (where necessary) 
including clinical staff, temporary medical facilities and any needed 
logistical support.
    In addition, the Department's Centers for Disease Control and 
Prevention's (CDC) Office of Public Health Preparedness and Response 
(OPHPR) is responsible for managing the approximately $1.5 billion per 
year in Terrorism Preparedness and Emergency Response funding 
appropriated by Congress to support CDC public health preparedness and 
response activities. Congress appropriates the majority of this funding 
for two CDC programs, the Public Health Emergency Preparedness 
cooperative agreement and the Strategic National Stockpile, to support 
State and local preparedness infrastructure. OPHPR also strategically 
coordinates CDC's preparedness activities to meet the following five 
objectives that emerge from CDC's core public health functions to form 
a foundation for public health preparedness across the Federal, State, 
and local levels:

    <bullet>  Health Monitoring and Surveillance
    <bullet>  Epidemiology and Other Assessment Sciences
    <bullet>  Public Health Laboratory Science and Service
    <bullet>  Response and Recovery Operations
    <bullet>  Public Health System Support

    For more information, see Public Health Preparedness: Strengthening 
CDC's Emergency Response, 2009, available at http://emergency.cdc.gov/
publications/jan09phprep/pdf/jan09phprep.pdf.
National Disaster Medical System
    The National Disaster Medical System, otherwise known as NDMS, is 
the primary Federal program that supports care and transfer during 
evacuation of patients. NDMS is a component of ASPR comprised of over 
1,500 volunteer hospitals and over 6,000 intermittent Federal employees 
assigned to approximately 90 general disaster and specialty teams 
geographically dispersed across the United States. The overall purpose 
of NDMS is to establish a single integrated national medical response 
capability for assisting State and local authorities with the medical 
impacts of major peacetime disasters and to provide support to the 
military.
    Although the approach of NDMS in fielding targeted personnel 
capabilities is to deploy activated NDMS clinicians who have broad-
based training related to all age and at-risk groups, we still 
recognize that more specialized skill sets can be quite valuable. Since 
children and pregnant women can be a particularly vulnerable 
population, NDMS is developing pediatric modules within the Disaster 
Medical Assistance Team (DMAT) structure. Not only will these 
professionals be able to support Federal missions, but the intent is 
for them to enhance State and local support networks. NDMS has also 
conducted a review and upgrade of medical material in the NDMS response 
supplies to ensure that appropriate age-specific equipment and supplies 
are available to our response teams when they deploy.
    In addition to clinical care, patient transportation is a key NDMS 
activity. NDMS has completed Phase 1 of the development of critical 
care transport team capability. Phase 1 has provided on-the-ground 
critical care support capability for mass patient evacuation and is 
capable of deploying to support the Department of Defense, including 
its National Guard Bureau, efforts to evacuate critical care patients. 
Each of these teams has clinical expertise and formal training in 
emergency care to special populations, including pediatric and 
obstetrical. Phase 2 of this program included the further development 
and fielding of existing air-evacuation qualified critical care 
transport teams that will provide direct patient care during transport 
of critical care patients on multiple platforms, including fixed-wing 
and rotary-wing air, rail, and ground transport.
    HHS recognizes that there is a need for development of planning 
guidance for healthcare facilities as well as for local, State, 
regional, and Federal jurisdictions. While the National Response 
Framework mandates that States are responsible for determining patient 
evacuation requirements, Federal support can be requested when State 
capacity cannot support the evacuation requirements. Federal assets 
include ambulances from the DHS-funded FEMA National Ambulance 
Contract, administered by HHS. This contract provides for a neonatal 
specific-typed rotary wing helicopter, and a neonatal specific-typed 
fixed wing aircraft, both of these aircraft for neonatal transport were 
deployed during the 2008 hurricane season.
Hospital Preparedness
    Since its inception in 2002, ASPR's Hospital Preparedness Program 
(HPP) has provided more than $3 billion to fund the development of 
medical surge capacity and capability at the State and local level. HPP 
funds are awarded to State and territory departments of public health, 
which in turn fund projects at hospitals and other healthcare entities. 
As a result, hospitals can now communicate with other responders 
through interoperable communication systems; track bed and resource 
availability using electronic systems; protect their healthcare workers 
with proper equipment; train their healthcare workers on how to handle 
medical crises and surges; develop fatality management, hospital 
evacuation, and alternate care plans; and coordinate regional training 
exercises.
    As a result of Congress's investment in the Hospital Preparedness 
Program our hospitals were better prepared to respond to the 2009 H1N1 
outbreak. Since the inception of funding, pandemic influenza 
preparedness and development of alternative care sites have been two 
priorities of the HPP program. In 2007, $75 million was awarded to 
States and territories specifically for pandemic influenza planning, 
including pandemic exercises and purchases of equipment, such as 
ventilators, that would aid in their response to a pandemic. Of the 
grantees receiving these funds, 79 percent conducted pandemic influenza 
exercises to hone their preparedness capabilities. In 2009, $90 million 
was awarded from the Supplemental Appropriations Act, 2009 for purchase 
of personal protective equipment, such as N-95 respirators for 
healthcare workers, and to develop plans for alternative care sites. 
CDC has also been providing support to States for vaccine program 
implementation and to help State and local health departments.
    HPP has required recipients to implement a system of bed counting, 
called the ``Hospital Available Beds in Emergencies and Disasters'' 
(HAvBED). This system requires reports of available beds, including a 
count of available adult and pediatric general beds and ICU beds, to 
State and HHS emergency operations centers within 4 hours of request. 
HAvBED enhanced our 2009 H1N1 medical surge response capability.
    Furthermore, based on the lessons learned from the spring 2009 H1N1 
response, HAvBED was modified to also collect information on emergency 
department stress and hospital stress. ASPR worked with the HPP 
grantees, the American Hospital Association and private vendors to 
develop a core set of measures (including daily census counts and 
equipment shortages) for the level of stress on the healthcare system. 
Within 48 hours of receiving information, we have senior ASPR experts 
discuss and analyze data to determine if any hospitals are showing 
signs of stress or if there are indicators of equipment shortages. On 
occasions where the data indicates stress, we engage our Regional 
Emergency Coordinators to work with State health departments in 
conducting an investigation.
     Response to Questions of Senator Franken by John Howard, M.D. 
                   and Aubrey Keith Miller, M.D., MPH
    Question 1. One thing I've heard repeatedly is that we don't know 
how this spill will affect the public's health because something of 
this magnitude has never happened.
    What's the plan for studying the long-term effects of this terrible 
event on the health of workers and Gulf residents?
    Response 1. The long-term human health effects from the oils spill 
are unknown. In order to learn about potential health hazards, CDC and 
NIEHS have been working together to begin identifying data gaps to 
address and evaluate potential long-term and short-term health. The 
NIEHS is leading the development of the Gulf Long-Term Follow-up (GuLF) 
study to examine the short- and long-term health consequences of the 
Deepwater Horizon oil spill on workers and volunteers engaged in clean-
up activities. The study has been designed and the protocol reviewed by 
the National Institute of Occupational Safety and Health (NIOSH) 
leadership, 12 other Federal agencies, NIEHS-selected external peer 
reviewers, and an expert panel convened by the Institute of Medicine 
(IOM). The study will examine a wide range of potential short- and 
long-term human health consequences which may include, but are not 
limited to respiratory, cardiovascular, hematologic, dermatologic, 
neurologic, cancer, reproductive, mental health, substance abuse, 
immunologic, hepatic, and renal effects associated with clean-up and 
disposal activities surrounding the oil spill.
    Worker safety and health can be broken into three phases: pre-
deployment, deployment and post-deployment. The GuLF study will include 
many of the workers identified in CDC's accounting for the workers that 
are engaged in the clean-up response (rostering) during the pre-
deployment phase.
    CDC and NIEHS are currently in the deployment phase where the 
necessary activities include monitoring and quantifying potential 
exposures to oil and dispersants, collecting information on health 
symptoms (including behavioral health), and monitoring illness and 
injury data. All this information collected during the deployment phase 
is critical to determine the scientific basis needed to address health 
concerns of the community and to develop strategies to prepare for 
future disasters. CDC and NIEHS activities are being carried out in 
collaboration with other Federal, State and local agencies, 
institutions and communities in the Gulf region.
    The NIEHS also plans to support one or more academic consortium of 
investigators working in the Gulf region to address health issues 
related to the spill. Potential topics to be addressed include maternal 
and child health, health disparities, cardiovascular health, 
psychosocial stress, and others.
    The National Toxicology Program, located administratively within 
NIEHS and headed by the NIEHS Director, is planning studies to identify 
important biological activities and tissue targets for crude oil, 
weathered oil, dispersants, and mixtures of oil and dispersants found 
in the Gulf. The proposed studies include a mixture of literature 
evaluations, analytical chemistry activities, and toxicity pathway 
screens to confirm and extend our understanding of the hazards 
presented by these complex materials.
    CDC/NIOSH is planning to conduct acute animal toxicity studies on 
the dispersant (Nalco Corexit 9500A), crude oil obtained from the 
source, and dispersant/crude oil mixtures. While NIOSH promotes 
interdisciplinary toxicology research related to Deepwater Horizon, 
this particular study is funded entirely by NIOSH and is being 
conducted independently from the NTP. Studies will include inhalation 
studies that measure pulmonary, cardiovascular, and central nervous 
system outcomes. Additionally, dermal exposure studies are also being 
planned to assess hypersensitivity and immune-mediated responses. By 
conducting these animal toxicity studies, NIOSH hopes to contribute to 
the body of science on the potential health effects of exposures to 
crude oil, dispersant, and mixtures. Findings will be published in the 
peer-reviewed literature, disseminated at conferences, and available to 
the general public.

    [Whereupon, at 4:00 p.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
